<html>
<title> - DETERMINING A CHAMPION ON THE FIELD: A COMPREHENSIVE REVIEW OF THE BCS AND POSTSEASON COLLEGE FOOTBALL HEARING BEFORE THE SUBCOMMITTEE COMMERCE, TRADE, AND CONSUMER PROTECTION OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                            DETERMINING A CHAMPION 
                       ON THE FIELD:  A COMPREHENSIVE 
                            REVIEW OF THE BCS AND 
                         POSTSEASON COLLEGE FOOTBALL


                                  HEARING

                                 BEFORE THE

                     SUBCOMMITTEE COMMERCE, TRADE, AND 
                           CONSUMER PROTECTION

                                  OF THE 

                         COMMITTEE ON ENERGY AND 
                                 COMMERCE


                         HOUSE OF REPRESENTATIVES


                        ONE HUNDRED NINTH CONGRESS

                               FIRST SESSION

                                  -------

                             DECEMBER 7, 2005

                                  -------

                            Serial No. 109-42


           Printed for the use of the Committee on Energy and Commerce



Available via the World Wide Web:  http://www.access.gpo.gov/congress/house

                                 -------

                    U.S. GOVERNMENT PRINTING OFFICE
21-023                      WASHINGTON : 2005
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                        COMMITTEE ON ENERGY AND COMMERCE

                          JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
STEVE BUYER, Indiana                      DIANA DEGETTE, Colorado
GEORGE RADANOVICH, California             LOIS CAPPS, California
CHARLES F. BASS, New Hampshire            MIKE DOYLE, Pennsylvania
JOSEPH R. PITTS, Pennsylvania             TOM ALLEN, Maine
MARY BONO, California                     JIM DAVIS, Florida
GREG WALDEN, Oregon                       JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                       HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey                 CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan                     JAY INSLEE, Washington
C.L. "BUTCH" OTTER, Idaho                 TAMMY BALDWIN, Wisconsin
SUE MYRICK, North Carolina                MIKE ROSS, Arkansas
JOHN SULLIVAN, Oklahoma                   
TIM MURPHY, Pennsylvania                  
MICHAEL C. BURGESS, Texas                 
MARSHA BLACKBURN, Tennessee               
GRESHAM BARRETT, South Carolina           

                       BUD ALBRIGHT, Staff Director
                      DAVID CAVICKE, General Counsel
     REID P. F. STUNTZ, Minority Staff Director and Chief Counsel



      SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION
                     CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                      JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                        Ranking Member
BARBARA CUBIN, Wyoming                    MIKE ROSS, Arkansas
GEORGE RADANOVICH, California             EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire            EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania             SHERROD BROWN, Ohio
MARY BONO, California                     BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                       GENE GREEN, Texas
MIKE FERGUSON, New Jersey                 TED STRICKLAND, Ohio
MIKE ROGERS, Michigan                     DIANA DEGETTE, Colorado
C.L. "BUTCH" OTTER, Idaho                 JIM DAVIS, Florida
SUE MYRICK, North Carolina                CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania                  TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee               JOHN D. DINGELL, Michigan
JOE BARTON, Texas                           (EX OFFICIO)
  (EX OFFICIO)                            


                                  CONTENTS


                                                                        Page
Testimony of:

Weiberg, Kevin, Coordinator, Bowl Championship Series, Commissioner, Big XII Conference 	                                                         18
Delany, James E., Commissioner, Big Ten Conference 	                 23
Khayat, Robert, Chancellor, The University of Mississippi 	         31
Junker, John, President and Chief Executive Officer, Fiesta Bowl 	 35
Johnstone, William, Chairman, Rose Bowl Management Committee 	         38
Fox, Derrick, Chairman, Football Bowl Association, President and Chief Executive Officer, Alamo Bowl 	                                         43
Additional material submitted for the record:

   Stokan, Gary P., President, Peach Bowl, Inc., letter dated November 30, 2005, to Hon. Cliff Stearns	                                         52
   Sample, Steven B.., President, University of Southern California, letter dated December 6, 2005, to Hon. Mary Bono	                         57
Barton, Brad, Sunnyvale, TX,  to Hon. Joe Barton	                 59


(III)


                      DETERMINING A CHAMPION ON THE 
                     FIELD:  A COMPREHENSIVE REVIEW 
                         OF THE BCS AND POSTSEASON 
                              COLLEGE FOOTBALL


                        WEDNESDAY, DECEMBER 7, 2005

                          HOUSE OF REPRESENTATIVES,
                      COMMITTEE ON ENERGY AND COMMERCE,
          SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION,
                                 Washington, DC.

	The subcommittee met, pursuant to call, at 10:05 a.m., in Room 2123 of the Rayburn House Office Building, Hon. Cliff Stearns [chairman] presiding.
	Members present: Representatives Stearns, Upton, Deal, Cubin, Bass, Pitts, Terry, Murphy, Blackburn, Barton (ex officio), Schakowsky, Gonzalez, Baldwin, and Gordon.
	Staff present: David Cavicke, General Counsel; Andy Black, Deputy Staff Director, Policy; Chris Leahy, Policy Coordinator; Andrew Snowden, Counsel; Brian McCullough, Professional Staff; Will Carty, Professional Staff; Terry Lane, Deputy Communications Director; Jonathon Pettibon, Legislative Clerk; and Billy Harvard, Legislative Clerk; Jonathan Cordone, Minority Counsel; Jonathan Brater, Minority Staff Assistant; and Chris Treanor, Minority Staff Assistant;.
	MR. STEARNS.  Good morning, everybody.  I am pleased to welcome all of you to the Commerce, Trade, and Consumer Protection Subcommittee's hearing on the current state of postseason college football and in particular, the Bowl Championship Series known as BCS.  
	Like many of my fellow Americans, I look forward to this time of the year to spend quality time with family and friends, and celebrate the Christmas and New Year's holiday.  But I also enjoy the distinctly American pleasure of gathering around the television to cheer for all the adopted college favorites as they participate in the annual postseason bowl games.  College football is an American institution and the bowls are the sacred rituals of that grand institution.  And yes, I will definitely be tuned in to the University of Florida, the Gators, in the Outback Bowl, like many other folks from my home State of Florida.  The bowls are the culmination of the thrills and excitement that happens every fall.  It brings the college football fans in the Bowl Championship Series together, and it was created in 1998 and attempts to ensure that we can all agree on who is the number one at the end of the fall season.
	As many have pointed out and history has shown, the process of determining a Division I-A college football championship is a lot harder than it looks.  Just ask USC or Auburn, who each had perfect records in 2003 and the 2004 season respectively, but were denied a berth in the championship game.  The system simply doesn't account for more than two qualified teams.  Since its inception, the BCS has been surrounded by a bit of controversy.  Computer rankings, coaches polls, conference schedules, and simply wins and losses all are part of this unique calculus of picking the match-up for the national championship game.  That new math gets a bit fuzzy when the system produces the two perfect teams based on all that data, but most observers recognize that the teams ranked third, fourth, or even fifth are equally deserving.  Many, including the chairman of the full committee, suggest that history has shown that finding the right two teams, or only two teams, might be too difficult and create as much controversy as existed before the BCS was formed and created.  Opening the postseason to more teams so that the champion can be determined by its on-field performance rather than fuzzy math might be a better model and might be fairer to the athletes themselves.
	Now the traditionalists, on the other hand, continue to believe that bowl games should be part of the character of the conference and its distinct history rather than a product of supercomputers and other hocus-pocus, as they would indicate or imply.  And I will add the television networks, the media outlets, and local communities that support the bowls also have strong opinions about, along with millions invested in the longstanding and low and now, of course, very lucrative tradition.
	So my colleagues, the hearing today is an attempt to allow members of the committee an opportunity to learn more about the bowls, the BCS, the ranking systems that operate, and the process that takes all the ingredients and data and determines the two most qualified teams in college football without a playoff elimination structure.  Being invited to a bowl game, particularly one of the four bowls that are under contract with BCS, not only is a great honor, but it also translates into millions of dollars of additional revenue for the schools, whose teams participate as well as the conferences they represent.  The intersection of the big time sports and lucrative financial deals is something this committee has examined in the past and will continue to have jurisdiction and interest in.  More importantly, this committee, as well as all Americans, wants to be certain that sports are fair, especially to every student athlete who works so hard and sacrifices a great deal of the traditional college experience in pursuit of athletic excellence.  I also believe that we must always keep in mind that Division I-A college football is high stakes, big business, but should remain at its core a component of an academic system that sponsors athletes, not NFL lite.
	With that in mind, a number of BCS alternatives and variations have been advanced.  Most approaches focus on better ways to allow more teams to compete for the title, enabling those title games to be a function of prior wins and not rankings.  One of the most discussed, the so-called BCS plus one approach, would have the four top ranked teams play each other and then have the two winners play a championship game the following week.  Now another option is the NFL-type playoff system that would use existing bowl games as part of a traditional playoff structure.  Finding the perfect system to determine a true champion will not, of course, be without obstacles.
	With that in mind, I look forward to hearing from our witnesses today about how they plan to deal with future challenges, such as avoiding another situation that denies athletes an opportunity to play for a national championship, as was the case with the Auburn or USC the past two years.  I am also interested in learning how we can facilitate smaller conferences' participation in the bowls, given the extraordinary revenue disparity between conferences that exists under the current system.  And most importantly, I want to know how any system does not further compromise the academic integrity of those student athletes and those institutions, and balance that mission with the attraction of lucrative deals and with big time sports.
	[The prepared statement of Hon. Cliff Stearns follows:]

PREPARED STATEMENT OF THE HON. CLIFF STEARNS, CHAIRMAN, SUBCOMMITTEE ON 
                  COMMERCE, TRADE, AND CONSUMER PROTECTION

Good morning. I am pleased to welcome all of you to the Commerce, Trade, and Consumer Protection Subcommittee's hearing on the current state of post-season college football and, in particular, the Bowl Championship Series (BCS).  Like many of my fellow Americans, I look forward to this time of the year to spend quality time with family and friends and celebrate the Christmas and New Year holidays. But I also enjoy the distinctly American pleasure of gathering around the television to cheer for our alma maters or adopted college favorites as they participate in the annual post season bowl games.  College football is an American institution and the Bowls are the sacred rituals of that grand tradition.  And yes, I'll definitely be tuned into the Gators in the Outback Bowl like many other folks from my home in Florida.  The Bowls are the culmination of the thrills and excitement every fall brings the college football fan and the Bowl Championship Series, created in 1998, attempts to ensure that we all can agree on who is number at the end of that thrilling fall season.  As many have pointed out, and history has shown, the process of determining a Division I-A college football champion is a lot harder than it looks. Just ask USC or Auburn, who each had perfect records in the 2003 and 2004 seasons, respectively, but were denied berths in the championship game.  The system simply doesn't account for more than two qualified teams. 
 Since its inception, the BCS has been surrounded by controversy.  Computer rankings, coach's polls, conference schedules, and simple wins and losses all are part of the calculus of picking the match-up for the national championship game.  That new math gets a bit fuzzy when the system produces the two "perfect" teams based on all that data but most observers recognize the teams ranked 3, 4, or even 5 are equally deserving.  Many, including the Chairman of the Full Committee, suggest that history has shown that finding the right two teams, or only two teams, might be a bit too difficult and create as much controversy as existed before the BCS was formed.  Opening the post-season to more teams so that the champion can be determined by its on-field performance rather than fuzzy math might be a better model, and more fair to the athletes.  The traditionalists, on the other hand, continue to believe that bowl games should be part of the character of the conference and its distinct history rather than a product of supercomputers and other hocus pocus, as they might say.  And I'd add, the television networks, media outlets, and local communities that support the bowls also have strong opinions along with the millions invested in this long-standing and now very lucrative tradition. 
The hearing today is an attempt to allow members of the Committee an opportunity to learn more about how the bowls, the BCS, and the rankings systems operate and the process that takes all the ingredients and data and determines the two most qualified teams in college football without a playoff elimination structure.  Being invited to a Bowl game, particularly one of the four Bowls that are under contract with the BCS, not only is a great honor but it also translates into millions of dollars of additional revenue for the schools whose teams participate as well as the conferences they represent.  The intersection of big-time sports and lucrative financial deals is something this Committee has examined in the past and continues to have an interest in.  More importantly, this Committee, as well as all Americans, wants to be certain that sports are fair, especially to every student athlete who works so hard and sacrifices a great deal of the traditional college experience in pursuit of athletic excellence.   I also believe we must always keep in mind that Division I-A college football is high stakes, big business, but should remain at its core a component of an academic system that sponsors athletics, not "NFL-Lite."
With that in mind, a number of BCS alternatives and variations have been advanced.  Most approaches focus on better ways to allow more teams to compete for the title and enabling those "title" games to be a function of prior wins not rankings.  One of the most discussed, the so-called BCS+1 approach, would have the four top ranked teams play each other and then have the two winners play a championship game the following week.  Another option is the NFL-type playoff system that would use the existing Bowl games as part of a traditional playoff structure.
Finding the "perfect" system to determine a true champion will not be without obstacles.  With that in mind, I look forward to hearing from our witnesses today about how they plan to deal with future challenges, such as avoiding another situation that denies athletes an opportunity to play for a national championship as was the case with Auburn or USC the past two years. I am also interested in hearing how we can facilitate smaller conferences' participation in the bowls given the extraordinary revenue disparity between conferences that exists under the current system.  Most importantly, I want to know how any system does not further compromise the academic integrity of these student athletes and their institutions and balance that mission with the attraction of lucrative deals and big-time sports. 
 I welcome the witnesses today and look forward to their testimony.  Thank you.

MR. STEARNS.  With that, I welcome the witnesses and I will ask my colleague, Mr. Gonzalez, for his opening statement.
	MR. GONZALEZ.  Thank you very much, Mr. Chairman, and I welcome the witnesses.
	I guess the first observation on this side is, you know, what business does Congress have?  What is its legitimate role?  No one, that I understand, has asked us to intervene.  Nevertheless, I don't think there is anything lost by a little bit of education.  As far as attendance, I apologize.  Obviously, we have other conflicts.  We have other hearings going on at the present time.  But going beyond what is a legitimate role of government and Congress and this particular committee and subcommittee, I know that attendance would be improved greatly if they would follow my recommendation, Mr. Chairman, in that we have a field hearing on this.  I propose it be on January the 4th in Pasadena, California at halftime, being a Longhorn, and I would greatly appreciate if anybody knew where I could get a couple of really decent tickets to the Rose Bowl.
	But on the serious side, as we approach, and I know that the witnesses, and I have read some of the statements already, where were we before, where are we today, and where are we going and are really going to be improving?  Any time that we make any kind of change, there is an aversion to change.  It doesn't matter whether it is football or Congress.  It just doesn't matter, any profession.  It just is.  And I guess the only word of caution is, as we move forward, is that if we suggest any improvement versus a legitimate for government and Congress to be that particular vehicle for that change.  I think there are many of us here that really believe, like anything else, you leave it out there and let those market forces and the appropriate and the level playing field, no pun intended, play out.  And only in the last resort should really, the legislative body such as Congress, come in and make its own recommendations and then its mandates.  Because at the end of that process, it really is a statutory order.
	And with that, Mr. Chairman, thank you very much and I yield back.
MR. STEARNS.  I thank the gentleman.  Mr. Deal.
	MR. DEAL.  Thank you, Mr. Chairman.  I commend you on having such a distinguished panel of witnesses today.  I look forward to their testimony.  On behalf of my State, I am just pleased that the University of Georgia and Georgia Tech are both going to bowls this year.  It certainly, I think, speaks well of both of their programs.  I too would be interested in that field hearing that Mr. Gonzalez mentioned.  I too have reservations about whether this is a legislative arena in which we should enter, but I certainly do thank the witnesses for their presence, and it will be enlightening hearing, I am sure, to hear your points of view and your perspectives on the issue, and thank you for being here.  Mr. Chairman, I yield back my time.
MR. STEARNS.  I thank the gentleman.  Mr. Terry.
	MR. TERRY.  Thank you, Mr. Chairman.  I look forward to this hearing as a sports fan, a college football fan in particular, and not necessarily as a legislator.  As an alum from the University of Nebraska, a Booster, Mr. Fox, thank you.  Nebraska, at least from the fans' standpoint, we are very much looking forward to the Alamo Bowl.  And I think, as I sit here right at this point, I think we have sold out of our 10,000 allotment.  At least there were only about a thousand away late last night, so we need more.
	So we look forward to that and it will be interesting because, as a college sports fan, college football fan, I think part of the fun of college sports or college football is the BCS, and our arguing about whether we should go to a playoff system, whether it should be this hybrid BCS, or what other options are out there, or the football tradition of the bowls.  And I view the BCS as--maybe we could do it a little bit better, certainly better than the tie-in, just the strict tie-in.  For example, in the Alamo Bowl, we will have the opportunity to, at least by way of rhetoric, engage in the 1997 national championship, where Michigan and Nebraska were by far the top two teams and weren't able to play each other.  If there was a BCS that year, we would have been able to play each other.  Then Nebraska would have been the undisputed national championship, probably a double-digit winner in that game.  A little pre-Alamo smack here, okay?  Just anything to get the ratings up there.  So I kind of like this, but again, college football is supposed to be about fun and not necessarily all business, and that was the point that our chairman was making.
	One other point that I will make is that the lucrative deal, the issues that bowls are big money, is what gives our committee some jurisdiction.  It is.  Because the money is involved, it makes it big business.  That probably requires us to just kind of keep an eagle's eye on from above.  But I also hear and I would like to hear, even though this gets away from whether should be bowl tie-ins, the hybrid BCS, or a playoff position, but on the surface, where you have large payouts for bowl games, particularly some of the minutes that look good, from what we hear from our athletic directors is they are actually money-losing opportunities for the teams or the conferences once you get outside of the BCS-level payoffs.  So if someone wants to touch on that, my suggestion is, we might need to encourage bigger payouts so it isn't a money-losing process instead of just another 14 practice days.
	So with that, welcome to all of our witnesses.  This is will be an enlightening and I think fun discussion for us today.  Thank you.
	MR. STEARNS.  I thank my colleague.  The distinguished chairman of the full committee, Mr. Barton from Texas.
	CHAIRMAN BARTON.  Thank you, Mr. Chairman.  I want to applaud your leadership in holding these hearings.  I want to applaud our witnesses for being here.  I know it has not been easy to do this.  We were going to do this earlier in the year and the Katrina hurricane made it difficult to get our witnesses here.  And now that we are through with the regular season, it is difficult to get witnesses.  Many of them are the coaches preparing for the bowls, so I am glad we have the group that we have here today.
	This past weekend, the University of Southern California and the University of Texas were selected by the Bowl Championship Series to play for the Division I-A college football championship in the Rose Bowl on January the 4th.  I hope I am there to watch that game.  USC and Texas are worthy contenders, and I want to congratulate their players, their coaches, and their fans for truly outstanding seasons.  I say that as a Texas A&M fan, so you know that it is heartfelt, but yes, I am also the husband of a University of Texas graduate.  So I really mean it when I say that I am truly happy for the Universities of Texas and Southern California to be able to play for the national championship.
	Are those teams worthy of the opportunity to play for the Division I-AA championship?  Sure they are.  They are the two undefeated teams in Division I-A this year.  Are there other top teams on any given day that could beat them?  Sure there are.  I think Penn State probably would have a shot this year.  You could argue that Ohio State, that Texas beat, could win if you had a rematch.  You could certainly argue that Notre Dame, who almost beat USC, on any given day might be able to win against one of those two teams.  Under the current BCS structure, we will never find out.  BCS was created in 1998.  The idea was that each year college football would crown something approximating an undisputed national championship.  It just hasn't worked out very well.  The fact this year that there are only two teams undefeated does not mean that the current system works.  What it does mean is that this year there are only two undefeated teams.  So it is almost a no-brainer which two teams should play for the national championship.
	In contrast, last year brought us the BCS at its unluckiest.  Largely because it was ranked lower in the preseason polls than the other two undefeated teams, Auburn was barred from the title game, despite a spectacular season.  When polls and computer rankings outweigh the performance that a team actually delivers on the field, I think we have a problem.  Some will say that this is just football, or that a successful season is its own reward, but there is more at stake than transitory glory.  A national championship football team means millions and millions of dollars for the university that has that team and the conference in which its teams play, if its team plays in a conference.  Revenue generated by a football championship is used to fund, among other things, nonrevenue sports and scholarships.  When LSU won the BCS national championship in 2003, its revenues from merchandise sales alone increased almost $2 million the following year.  The major BCS bowls this year are going to pay out close to $90 million to the participating teams.  
	There is one simple way to put all this doubt to rest.  Let us play it out on the field.  Other major college sports, even other divisions of college football, have some sort of a playoff system that determines the national championship.  The fundamental question that I hope we answer today is, why can't Division I-A of college football, the diamond, so to speak, of the entire football system, the 900 pound gorilla, why can't it do it?  Now, I have heard many reasons why a playoff system would not work, including harming traditional bowl structure, diminishing the importance of the regular season, and compromising academics.  All of these concerns have merit, but none strike me as insurmountable.
	For example, of the existing 56 teams that are playing in bowls this year, 41 percent of them have student athletes that don't meet the minimum requirements for NCAA academic performance.  So if we are serious about academic performance, we ought to put something in it that you don't go to a bowl game if you don't have a graduation right above 50 percent the prior three seasons on average or something like that.  You know, if we want to be consistent in terms of academics, I am all for that.  But let us don't use that as an excuse not to have a playoff system, and then ignore it once we establish that we are not going to have the system.
	I do want to thank all the witnesses for taking time to be here today.  I know you probably would rather be somewhere else.  I do think it is important, though, that we have these hearings.  This committee and this subcommittee has jurisdiction over sports.  Now, upstairs we have got a hearing going on right now on peak oil, how much oil is left in the world.  We are going to have a hearing next week on drug reimportation.  We just passed a major Medicaid reform bill through this committee.  Earlier this year, we passed a major energy bill.  Next week we may be having a markup on a major telecommunication reform bill.  This subcommittee has passed a data privacy bill that we are trying to get agreement on with our friends on the Democratic side so we can mark it up.  So we have lots and lots of very important issues.
	But man doesn't live by policy alone.  Sports are an important part of American society, and this committee and this subcommittee has jurisdiction over sports.  So every now and then it is appropriate to do one of these hearings.  We do not have a legislative proposal.  Congressman Stearns and myself and Mrs. Schakowsky and Mr. Gonzalez and Mrs. Baldwin, we are not going to introduce a playoff bill after this hearing.  But I hope that this hearing causes discussion, and I would like to see the NCAA and the BCS and the major conferences come together and on their own develop a bowl playoff system.  You know, it could be a 64-team playoff.  If you wanted to back to 10 regular seasons games, maybe it is a two-team playoff or a four-team playoff or an eight-team playoff or 16-team playoff.  But I really think there should be some sort of a playoff.  The BCS is going to have number one and number two this year, and that is a good thing, but nobody at this table can guarantee that the BCS is going to do that every year, because you can't.  It only works if you only have two undefeated teams.
	And with that, Mr. Chairman, I yield back and I look forward to hearing from our witnesses.
	[The prepared statement of Hon. Joe Barton follows:]

     PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON 
                            ENERGY AND COMMERCE

Thank you, Mr. Chairman, for holding today's hearing, which is very timely.  This past weekend, the Universities of Southern California and Texas were selected by the Bowl Championship Series to play for the Division I-A college football championship in the Rose Bowl next January 4.  USC and Texas are certainly worthy contenders, and I want to take a moment to congratulate their players and coaches for truly outstanding seasons.  As a Texas A&M fan, you have no idea how much it pains me to say that.  Are these teams deserving of the opportunity to play for the national championship -- yes, without a doubt.  Are there other top teams, such as Penn State, that could beat them on any given day -- probably so.  Unfortunately, under the current BCS structure, we won't get the chance to find out. 
	The BCS was created in 1998.  The idea was that each year, college football could crown something as close as possible to an undisputed national champion.  This idea hasn't worked out very well.  The fact that only two teams remain undefeated this year after fighting their way past worthy opponents does not mean that the system works, merely that it got lucky.  In contrast, last year brought us the BCS at its unlucky worst.   Largely because it was ranked lower in preseason polls than two other undefeated teams, Auburn was barred from the title game despite a spectacular season.  When polls and computer rankings outweigh the performance that a team has delivered on the field over the course of a season, there is a problem.  
Some will dismiss this as, "It's just football," or that a successful season is its own reward, but there is more at stake than transitory glory.  A national championship means millions of dollars for the university and the conference in which its teams play.  Revenue generated by a football championship is used to fund, among other things, non-revenue sports and scholarships.  For example, after LSU won the BCS national championship in 2003, its revenues from merchandise sales alone increased almost $2 million the following year.
	There is one simple way to put all doubt to rest -- let's play it out on the field.  Other major college sports -- and even other divisions of college football -- have some type of playoff system that determines the champion.  The fundamental question that I hope we answer today is why can't Division I-A college football -- the 900-pound gorilla of college sports -- do the same?
	I have heard many reasons why a playoff system would not work, including:  harming the traditional bowl structure; diminishing the importance of the regular season; and compromising academics.  All of these concerns have merit, but none strike me as insurmountable.  If we were to incorporate some of the existing bowl games into a playoff structure, and maintain the others, we could preserve tradition and increase revenue while affording more teams the opportunity to compete for a true national title.
	I want to thank all of the witnesses for taking the time to be here today.  I look forward to some lively debate on an issue that is near and dear to many of our hearts.  I believe that a broad, public discussion of what is working, what needs to be adjusted, and what needs to be completely overhauled will be valuable.  And I hope that in the end, the Division I-A college football championship can be decided where it should be -- on the field.  In my heart, I also know that sooner or later, the Aggies will win the championship, and I want that future victory to be untarnished.  And soon would also be nice!  

	MR. STEARNS.  I thank the chairman.  Ms. Schakowsky, the ranking member.
	MS. SCHAKOWSKY.  Thank you, Mr. Chairman.  I would like to thank the witnesses for joining us today for an interesting, if not pressing, inquiry into the matter in which the NCAA college football national championship is determined.  I want to extend a special welcome to Mr. Delany, who is representing the Big Ten, which is headquartered in my district, and which my alma mater, the University of Illinois, falls under.  And although there is interest in my district about the Bowl Championship Series, it is also home to Northwestern University, another member of the Big Ten Conference.  I believe, in fact, that more of my constituents are wondering why this committee and their congresswoman are taking time out of the legislative calendar for football as opposed to other more pressing issues, not that they are not going to watch and pay a lot of attention, but whether or not it is a matter for this Congress to be dealing with this.
	As many know, this hearing was moved from the Oversight and Investigation Subcommittee because Democrats raised concerns about other more significant hearings that should be held, particularly about Hurricane Katrina health care recovery.  Our subcommittee should also be following up on Katrina and what is needed to help the huge tourist industry in New Orleans recover, which is under the jurisdiction of our subcommittee, examining how well the ports are functioning, and also monitoring how commerce in the Gulf Coast is progressing or not.  Surely this would be more useful than discussing a football bowl system that most colleges, including Texas, are--well, I guess the chairman doesn't even know he is in it--they are in it, is not necessarily happy with, but most are happy with now.  And by the way, there is a bowl game in New Orleans, the Sugar Bowl.  Those tens of millions of tourist dollars are going to Atlanta because of the nonrecovery going on in New Orleans.
	With my concerns noted, there have been issues raised about how the BCS works.  The goal of the BCS is to assign teams to prestigious and lucrative bowls in a fair and credible fashion, and use this system to crown a single national champion at the end of each season.  However, the Bowl Championship Series record has had its share of controversies over how those decisions are made.  The various changes that have been implemented since its inception in 1998 have not alleviated questions that a number of football followers here have over how the rankings a decided.  The system has been adjusted to address particular points of contention, but there still are concerns about whether the BCS is the clearest and fairest basis for choosing the championship contenders.
	This season has been pointed out, few can argue that the system has not produced--few could argue that the system has not produced an appealing national title game with the only two undefeated teams, the University of Texas and USC, scheduled to meet in the Rose Bowl on January 4.  Last season, however, left a bitter taste in some football fans' mouths, with an undefeated school, Auburn, was left without a chance to compete for a championship.  It is misleading to argue that these controversies have been caused by the implementation of the Bowl Championship Series.  Prior to its introduction, college football had a system that made no attempt to determine a single champion by any method other than national polls, and teams were selected for bowls on grounds that were arguably based purely on popularity and profits.
	One model that has been presented to restructure the college football playoff system is the multi-tier postseason.  Northwestern University and the University of Illinois are among a number of major universities that have opposed this concept.  Opponents believe that a multi-tier playoff will greatly diminish the importance of college football's regular season.  It would also place a greater burden on the cities that currently host bowl games, by denying host cities the significant economic stimulus that they have long experienced.
	Finally, a multi-tier playoff system for Division I-A has been fully discussed and has been found to be ill-advised and unworkable by a strong majority of university presidents.  I agree with Northwestern and the University of Illinois that another solution must be found, and I think that that solution can be found within the current parameters of the bowl system itself.
	Before us today are a number of knowledgeable and influential participants in the Bowl Championship Series, and I look forward to finding out what, if anything, should be done to improve the BCS process.  I also look forward to holding hearings on more pressing issues in our subcommittee.  Thank you.
MR. STEARNS.  I thank my colleague.  Mr. Murphy.
	MR. MURPHY.  Thank you, Mr. Chairman.  It is important to all of us, our colleges and universities and our students, our children who are at these, to make sure that we make these academic and athletic experiences as fulfilling as possible.  I as a father of a Penn State student would like this year to be a little bit more fulfilling for the Penn State team, and still believe that Michigan didn't have one second left, but those are sour grapes that we can't do anything about.
	It does come into play, though, that this whole issue of the college football national championship, I am not sure any of us understand and it is really something that I wonder sometimes if the Federal government designed.  I think it works something like this: each Division 1 team, to percentage point, is derived by dividing that team's actual voting points by a maximum of 2,850 possible points in the Harris Interactive Poll, and 1,550 possible points in the USA Today's Coaches Poll.  Then six computer rankings provided by Anderson and Hester, Richard Billingsley--
	MR. STEARNS.  Will the gentleman slow down?  This is very important information.
	MR. MURPHY.  I am trying to help us understand this--Kenneth Massey, Jeff Sagarin, Peter Wolfe, are calculated by an inverse 25-point scale to determine the overall computer component.  The best and worse ranking for each team is dropped.  The remaining four are added together and divided by 100 to produce a computer ranking percentage.  Each of the six computer rankings account for a schedule strength in its formula.  Finally, the BCS average is calculated by averaging the percentage totals of the Harris Interactive, USA Today Coaches, and computer polls, and that is all there is to it.
	I really hope that this system can be cleaned up in a way that makes it so that the best teams, when the guys get together on the gridiron, that the best teams play.  It is an important part of the American pastime, it is an important part of our economy, and it certainly is an important part of the college experience, not only academics, but the athletic part of that as well.  And although this committee, as the chairman said, may not be coming up with legislation to make this one where the best teams do play each other, we do hope that this committee hearing is one that sheds some light on this whole process so that those best teams can play.
	Thank you, Mr. Chairman.  I hope I made that impeccably clear.
	MR. STEARNS.  That was impeccably clear.  Ms. Baldwin.
	MS. BALDWIN.  Thank you, Mr. Chairman.
	I am sure that many of my colleagues did as I did over the Thanksgiving recess and spent much of our time in listening sessions and engaging with constituents.  I can tell you my own experience, in listening session after listening session around my district, that I was shocked to hear more constituents talk about their confusion with the Medicare prescription drug plan than their confusion or the changes that are being proposed to the BCS formula.  I also have to admit, I was taken aback when I got more questions about what Congress is doing to provide health care to the uninsured and no questions about who I would pick to win the Heismann Trophy.  For the record, I think that Reggie Bush is a lock, with all apologies to Texas University and Vince Young fans.  
	But in all seriousness, I know that the BCS system has had its fair share of controversies since it was adopted in 1998.  Moreover, I do believe that it is prudent for the Energy and Commerce Committee to keep a watchful eye on the integrity of billion dollar businesses, including college football.  But I also believe that we must be careful and not go too far in suggesting changes to the bowl system that may damage the long tradition of college football and what it means to the schools, players and coaches.
	I think most college football fans in Wisconsin would prefer that retiring UW coach, Barry Alvarez, have more of a say in these types of decisions than Tammy Baldwin or members of Congress, and I agree.  Those of you who follow college football know how much Wisconsin loves their Badgers, and believe me, there is nothing like going to Camp Randall Stadium and see that 85,000-plus crowd enjoy the game and come together in song to the tune of varsity at the end of the game.  These traditions may be small, but they have helped make the school and the student body what it is today, and are deeply valued and appreciated by everyone who is a part of the university.  Annual bowl games are much bigger traditions, but are valued in much the same way.
	If there are true flaws in the way college football determines a champion, and not just differences in opinion about the best way to do, then perhaps this Congress should hear what those flaws are.  But I believe this Congress should be careful in prescribing how to fix those flaws and that the schools should remain--retain the autonomy to do so themselves.
	And I would just like to add that I hope our committee will soon be just as vigilant in examining some of the other problems that my constituents are deeply concerned about and troubled about, such as how to provide health insurance to 45 million uninsured.  They deserve no less.  Thank you, Mr. Chairman.
MR. STEARNS.  I thank the gentlelady.  The gentlelady from Tennessee, Ms. Blackburn.
	MS. BLACKBURN.  Thank you, Mr. Chairman.  I want to thank you for holding the hearing today, but I am going to have to tell you that I do have many questions and a lot of reservations about why we are holding the hearing right now, when we do have so many other more pressing issues.
	With that said, I have numerous questions about the BCS.  I am going to have to agree with some of the others that have commented.  I do think it is a flawed system.  I am just not certain that it ought to be coming before us.  I think that the fans, the market, that you all should work this out and it should not take an act of Congress to address it.  So I would encourage you, as I welcome our guests.
	I especially want to welcome my friend, Dr. Khayat, and welcome him here.  He is the chancellor at the alma mater for both of my children, and we enjoyed getting to know him there.  I will also say that my alma mater, Mississippi State, did beat him and we do hold the Egg Bowl trophy for this year.  So with that, I will say that we do welcome you.  I am a bit prideful that we are the Egg Bowl champs, and I hope we remain so and that you lose again next year, but welcome anyway.  We are delighted to have you here.
MR. STEARNS.  I thank the gentlelady.  Mr. Upton, the gentleman from Michigan.
	MR. UPTON.  Well, thank you, Mr. Chairman.
	I don't think anyone here on either side of the aisle is suggesting that we might want to legislate a solution to the BCS.  It is appropriately left to the conference, and I don't think it would be right for the Congress to step in and do that, and I don't think this hearing is intended to do that at all.  There is a lot of interest on both sides of the aisle, and I got to say, in the cloakrooms of the House, as well, as we watch different games, and as we look at rivalries that have gone on throughout the years, I have got a couple of suggestions that I think might merit some consideration by the board as they decide the BCS races in the future.
	One is, as I look at the schedule, I see teams and I look at my good friend, Mr. Terry from Nebraska, whom I am not quite ready to yield to, but we all arrange to play Nebraska in a bowl game, and I don't know why they played Maine.  I don't know that Maine is a Division 1 team, yet that is on their record.
	MR. TERRY.  We will do our talking on--
	MR. UPTON.  LSU, LSU, you know, a powerhouse all season long.  Why are they playing Appalachia State?  Are they a Division 1 team?  I don't know that they are.  Maybe I am wrong, in a number of other cases as well.  This isn't basketball where, in fact, you have conferences, whether they be Division 1.  Look at local teams.  There is a limited number of games.  Obviously it is not like a college basketball season.  I think that ought to be a consideration.
	I do have a private question I would like to ask Mr. Delany a little bit later and that is, how did Iowa get a better bowl than Michigan when we beat them there?  I don't quite understand that and my friends at the University of Michigan can't tell me that, either.  I guess that is in respect to Mr. Terry.  But I look forward to the testimony.  It is an issue that many millions of Americans are interested in, but I think they would almost all agree that Congress doesn't necessarily need to step into the fray.  I yield back.
	[Additional statements submitted for the record follows:]

PREPARED STATEMENT OF THE HON. CHARLES BASS, A REPRESENTATIVE IN CONGRESS FROM                   THE STATE OF NEW HAMPSHIRE

	Mr. Chairman - It is a privilege to be here today as we examine the existing NCAA college football postseason format.
	As today's discussion ranges from merchandise sales and television and title sponsorships to the revenue distribution from these major college bowl games, we must ensure that the welfare of our student-athletes remains at the forefront of this debate.  Whether the existing format remains in place or a new system is ultimately adopted, the NCAA postseason structure must neither deny student-athletes equal opportunity to compete for a national championship nor infringe upon their education.
	In my home state of New Hampshire, our two major Division-IAA schools, Dartmouth College and the University of New Hampshire, value the importance of success in the classroom as highly as their victories on the playing field.  In light of a recent study that revealed that 41 percent of this year's bowl-bound college football teams fall below the NCAA's minimum academic requirements - and nearly half fail to maintain a 50 percent graduation rate for their student-athletes - it is vital that any changes made to the postseason system emphasize academics above economics.  We cannot allow our students-athletes' education to suffer for the sake of financial gain.
	I appreciate the witnesses we have here today taking the time to share their thoughts with us, and I look forward to their testimony.

PREPARED STATEMENT OF HON. MARY BONO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

	Mr. Chairman, thank you for holding this hearing today.  Since 1998, the champion for NCAA Division 1-A football has been determined through the Bowl Championship Series.  This system was designed to create a clear champion on the field by matching the number 1 and number 2  ranked teams in NCAA Division 1-A football, while at the same time maintaining the integrity of the college bowl system.
	The system has matched up universities that previously would not have been able to compete against one another in a bowl game and has enjoyed some success; however it has also had its years where more controversy has been created than resolved.
	For instance, my alma mater, the University of Southern California, is a perfect university to use to identify the system's flaws because it has been both a beneficiary and a victim of the BCS.   
	In the 2003/2004 season, USC was ranked number 1 in both the Associated Press and USA Today/ESPN polls.  Despite this fact, USC was ranked third in the BCS 
rankings -  behind Oklahoma and LSU.  That year LSU defeated Oklahoma in the Sugar Bowl and USC defeated Michigan in the Rose Bowl.  LSU was declared the BCS 
national champion and USC was declared the Associated Press national champion.
	The following year, in the 2004/2005 season, USC was one of three schools who finished the regular season undefeated.  That season USC went on to defeat Oklahoma 
in the BCS Championship Game - ultimately finishing the season undefeated.  Auburn, the Southeastern Conference Champion and winner of the Sugar Bowl, also finished the 
season undefeated but was not declared the national champion in any poll.  Both of these seasons show the imperfections in the BCS and validate today's review.  
	However, at institutions like the University of Southern California where the central mission is the "development of human beings and society as a whole through the cultivation and enrichment of the human mind and spirit," football is a piece of the fabric of the institution - not the institution itself.  And while I support reviewing and improving the BCS system, the academic well-being of students and student-athletes is most important. 
	I am glad we have an opportunity to explore this issue today.  Believe me, as a USC alum, I am not only in favor of settling this on the field - I welcome it.  However, I hope the focus continues to be on maintaining the academic integrity of our colleges and universities so that when champions are crowned on the field, we can all rest assured 
that our country's students and student-athletes are champions off the field as well. 
	At this time I would like to submit a letter into the record from Steven B. Sample, President of the University of Southern California.  
	Thank you and I yield back.

MR. STEARNS.  If no one seeks any further opening statements, we will go to our first panel.  Mr. Kevin Weiberg, who is Coordinator of the Bowl Championship Series, Commissioner, the Big XII Conference; Mr. James Delany, Commissioner, Big Ten Conference; Mr. Robert Khayat, Chancellor of the University of Mississippi; Mr. John Junker, President and Chief Executive Officer of the Fiesta Bowl; Mr. William Johnstone, Chairman of the Rose Bowl Management Committee; and Mr. Derrick Fox, Chairman of the Football Bowl Association, President and Chief Executive Officer, Alamo Bowl.  So I would welcome all of you and, Mr. Weiberg, I will let you start.

STATEMENTS OF KEVIN WEIBERG, COORDINATOR, BOWL CHAMPIONSHIP SERIES, COMMISSIONER, BIG XII CONFERENCE; JAMES E. DELANY, COMMISSIONER, BIG TEN CONFERENCE; ROBERT KHAYAT, CHANCELLOR, THE UNIVERSITY OF MISSISSIPPI; JOHN JUNKER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, FIESTA BOWL; WILLIAM JOHNSTONE, CHAIRMAN, ROSE BOWL MANAGEMENT COMMITTEE; AND DERRICK FOX, CHAIRMAN, FOOTBALL BOWL ASSOCIATION, PRESIDENT AND CHIEF EXECUTIVE OFFICER, ALAMO BOWL

	MR. WEIBERG.  Okay.  Thank you, Mr. Chairman, members of the subcommittee, ladies and gentlemen, my name is Kevin Weiberg and I am the Commissioner of the Big XII Conference.
	MR. STEARNS.  Just pull your mike in front and then turn it on.  Yes, it just has a little switch there.
	MR. WEIBERG.  Sorry about that.
	MR. STEARNS.  That is fine.  That is good.
	MR. WEIBERG.  Mr. Chairman, members of the subcommittee, ladies and gentleman, my name is Kevin Weiberg and I am the Commissioner of the Big 12 Conference, an association of 12 universities from the Midwest and Great Plains regions of our country.  The Big 12 office currently serves as the coordinating office for the Bowl Championship Series.  This is an assignment that rotates every two years among the conferences that are part of the BCS arrangement.  In January, the BCS coordination responsibilities will move to the Southeastern Conference office and Commissioner Mike Slive.
	The Bowl Championship Series has simple objectives, to aim to match the number one and two ranked teams in a bowl game at season's end, and to provide a means by which other highly regarded teams, including conference champions, can be matched together to create quality bowl games.  The BCS is managed by the 11 Division I-A conferences and Notre Dame, with oversight provided by a group of college presidents and chancellors.  The BCS is supportive of the overall bowl structure, but it is only a small part of that structure, four bowls out of 28 this year.
	Bowl games provide a number of benefits to college football and the communities that host the games.  Over 5,000 student athletes participate annually in these games, far more than could reasonably participate in a playoff structure.  Bowl games are also significant civic celebrations and economic development opportunities for the communities that host them.  The bowl system is supportive of and enhances the excitement of college football's most valuable asset, its regular season.  College football is unique for its campus environment.  The ability to connect thousands of fans, alumni, and supporters with our campuses during the regular season to celebrate college football and the universities' many other educational and extracurricular activities, is an opportunity we cannot afford to lose.
	An NFL-style playoff structure could damage the regular season and devalue the bowls, potentially resulting in fewer postseason opportunities for student athletes.  Some have suggested that a multi-tier playoff structure be conducted through the bowls.  I believe such an approach would result in fewer regular season games played on campus, and it really isn't realistic, given the nature and mission of bowl games.  The bowl system better accommodates a student athlete's academic and physical well-being.  Bowl games are conducted at times that do not conflict with institutional exam schedules.  The present structure is confined to 13 or 14 games played in a single academic semester.  It is a manageable number of contests and is likely better from a health and safety perspective than an NFL-style playoff that could extend the season for some teams.
	I believe that the BCS is an improvement for college football's postseason, as is evidenced by this year's BCS games.  But I am also willing to continue to work to improve the current structure in a way that may help to address concerns about the determination of the national champion, with the following caveats: presidents and chancellors of our universities will need to authorize us to explore models that include teams playing more than one game in the postseason.  Such models, however, must not result in fewer postseason playing opportunities for student athletes.  The regular season must continue to have high significance, much more than just teams playing for seeds.  And any format must be reasonable for student athletes, including adequate recovery time between games and no added intrusion on the institutional academic calendar.
	In closing, the future direction of college football continues to be managed within the context of higher education.  I believe that university presidents and chancellors seek a balance between the academic mission of their institutions and the desire of fans for a system to crown a national champion.  We want to maintain the significance of the regular season, but also have a vibrant postseason bowl structure that provides a maximum number of opportunities for student athletes.  I thank you for the time, Mr. Chairman, and look forward to answering your questions.
	[The prepared statement of Kevin Weiberg follows:]

PREPARED STATEMENT OF KEVIN WEIBERG, COORDINATOR, BOWL CHAMPIONSHIP SERIES, COMMISSIONER, BIG XII CONFERENCE

	Mr. Chairman and members of the Subcommittee: my name is Kevin Weiberg and I am the commissioner of The Big 12 Conference, an association of 12 universities from the Midwest and Great Plains Regions.  
	The Big 12 Conference office currently serves as the coordinating office for the Bowl Championship Series. This is an assignment that rotates every two years among the conferences that are part of the BCS arrangement.  In January, the BCS coordination responsibilities will move to the Southeastern Conference office and Commissioner Mike Slive.
	The Bowl Championship Series, formed in 1998, has always had relatively simple objectives: among those is an aim to match the number one and number two ranked teams, through a ranking system consisting of two human polls and six computer polls, in a season-ending bowl game. The BCS also provides a means by which other highly regarded teams can be matched together to create quality bowl match-ups.  
	Decisions concerning the BCS arrangement are made by a presidential oversight committee, a group of university presidents and chancellors, with advice from conference commissioners, athletics directors and coaches.
	The BCS arrangement is reviewed annually by all eleven Division I-A conference commissioners and an athletics director advisory panel.  We also seek the advice of representatives of the American Football Coaches Association on certain matters. When we believe that some adjustment is appropriate, we make modifications to the arrangement in an effort to ensure that it continues to meet its objectives.  
	The BCS is but a small part of the landscape of post-season college football; it consists of only four games - the Fiesta, Orange, Rose, and Sugar bowls.  Post-season college football in Division I-A, however, encompasses far more than just the BCS games.  Today, there are 28 bowl games hosted by cities as diverse as Detroit and El Paso.
	There are often calls for participants in college football to jettison the bowl system for an NFL-style playoff.  A change could occur only as a result of legislation in the NCAA, and the NCAA's constituent groups - presidents, faculty, athletics directors, coaches - have not proposed such legislation. 
	An NFL-style playoff would bring with it certain costs for the game, student-athletes, and the many communities that annually welcome teams and fans for bowl games. That the bowl structure has endured for so long is a testament to its benefits and the unique role that it plays in college football.
	For more than a century, the traditional reward for Division I-A college football teams completing successful seasons has been a berth in a post-season bowl.  While the BCS uses the existing bowl structure in an effort to determine a national champion, the bowl system itself provides numerous other benefits that better the game. The bowls annually provide approximately 5,600 student-athletes with rich and meaningful postseason competitive and educational opportunities. The bowls are more than football games played during the holiday season. They are civic celebrations that may center around football games but include a host of events, including parades, basketball tournaments and other sporting events, social events, and charitable activities. The bowls do a great job of allowing student-athletes the opportunity to spend approximately a week in a community enjoying the many attractions and hospitality offered by the host bowl committee.  
	Bowl games also provide significant economic development, charitable and volunteer service benefits for their communities. For example, the Sugar Bowl estimates that its January 2005 game between Auburn and Virginia Tech created an economic impact in the city of New Orleans and the state of Louisiana of nearly $210 million.  State and local governments realized nearly $16 million in tax revenues as a result of the game.  As the city of New Orleans continues to rebuild from the ravages of Hurricane Katrina, we believe that the impact of events such as the Sugar Bowl, which annually lures thousands of visitors to New Orleans during the holiday season, will be a significant part of those efforts.
	College football is different from the NFL. There are 119 Division I-A college football teams, and we need a system that provides a large number of those teams with a postseason opportunity.  The NFL, with only 32 teams, can make a 12-team playoff work nicely within its structure.  
	It is important to note that each year 119 members of NCAA Division I-A can begin the season with a goal of playing in a bowl game and 56 teams can make that dream a reality.  Most playoff plans that have been proposed would be limited to a relatively small number of teams. The bowl system, on the other hand, provides post-season opportunities for many deserving teams that would not qualify for a national playoff.  I can think of several examples from the Big 12 Conference where teams have qualified for bowl games with six or seven wins, then went on to have a successful bowl experience and used that as a springboard to greater success in future years.  Programs like those at Kansas State University and Texas Tech University come to mind.
	The bowl system also heightens the excitement of college football's most valuable asset, its regular season.  College football teams are rewarded for consistency over an entire season.  Results in September have far reaching effects as teams progress through their season. Excitement builds as fans point to late-season match-ups, the outcomes of which will affect hopes of conference championships and postseason bowl berths.
	Beyond the significance of its regular season, college football is unique for its campus environment. Whether it is 50,000 fans in Ames, Iowa or 80,000 in College Station, Texas, a college football weekend, on campus, is the essence of the sport.  The ability to connect thousands of fans, alumni and supporters with our campuses during the regular season and to celebrate not only college football, but a university's many other educational and extracurricular activities, is an opportunity that our schools cannot afford to lose. 
	Under the bowl system, we maximize the importance of regular season games, which encourages alumni and fans to come to our games on campus.  Further, the current system places a high level of importance on every regular season game.  That is why early season games take on such great significance in this structure, because every game counts.
	A playoff system, however, could alter that dynamic.  For those teams that do not qualify for the playoffs, especially those that begin the season poorly, the regular season may lose much of its meaning.  The chase for a bowl berth, on the other hand, places a tangible goal in front of teams even if the national championship is not in the picture.
	Furthermore, the bowl system adds significance to games.  The Texas-Texas A&M match-up in my conference on Thanksgiving weekend is a good example.  Certainly, the rivalry is of great interest to the fans of the two institutions and its tradition attracts fans nationwide.  But the game had a lot of significance this year, because of the bowl system and the BCS. First, Texas entered unbeaten and ranked number 2.  A loss might have ended its hope of a national championship.  Second, because Texas A&M entered the game with a 5-5 record, a victory would have made it eligible for a bowl berth.  Neither would have been the case had there been a playoff.  Texas would likely have clenched a playoff berth long before the game, so the outcome of the game would have had only minimal effect on its national championship hopes.  Furthermore, because Texas A&M had lost five games, a victory would likely not have secured a playoff berth for the team.  
	The reality is that an NFL-style playoff structure carries with it the risk of devaluing the regular season, particularly games played late in the season.  Indeed, to some degree, playoffs alter the ordinary incentives that are attached to any game.  In playoff structures in other sports, once a certain spot is secured, coaches' concerns shift to preparing for the playoffs and away from late regular-season games.  This is true in a number of sports.  In baseball, for example, once a team clinches a division title, starters are rested and pitching rotations are set up for a playoff series.
	The bowl system may also better accommodate a student-athlete's academic and physical well-being. Bowl games are conducted at times that do not conflict with institutional exam schedules. Under the current system, the schedule is confined to thirteen or fourteen games in a single academic semester. This is a manageable number of contests and is better from a health and safety perspective when compared to an NFL-style playoff structure that could extend the season three or four games for some teams.
	In closing, the future direction of college football continues to be managed within the context of higher education. University presidents and chancellors seek a balance between the academic missions of their institutions and the desire of fans for a system to crown a national champion.  We want to maintain the significance of the regular season and support a vibrant postseason bowl structure that provides a maximum number of opportunities for student-athletes.
	I am willing to continue to work to improve the current system in a way that may help to address concerns about the determination of the national champion with the following caveats:
* Presidents and chancellors of our universities need to authorize us to explore models that include teams playing more than one game in the postseason;
* Such models must not result in fewer postseason playing opportunities for student-athletes;
* The regular-season must continue to have high significance, much more than just teams playing for seeds; and,
* Any format must be reasonable for student-athletes including adequate recovery time between games and no added intrusion on the institutional academic calendar.
	Thank you for the opportunity to provide some background on the bowl system and its importance to college football.  I look forward to answering your questions.

	MR. STEARNS.  Mr. Delany.
	MR. DELANY.  Yes, thank you.  Mr. Chairman and members of the subcommittee, I am Jim Delany and I am the Commissioner of the Big Ten Conference.  I have held that position for the last 16 years, and I appreciate the opportunity to speak with you today about postseason and Division I-A college football, and to share with you the views of the Big Ten Conference about this subject.
	To understand the Big Ten's perspective on postseason football, one must start with our historic relationship with the Rose Bowl.  Since 1946, with a few exceptions in recent years, the champion of the Big Ten Conference has been invited to play annually in the Rose Bowl against the champion of the Pac-10 Conference.  It would be difficult to overstate the significance of the Rose Bowl in relationship to our conference, our member institutions, our student athletes and fans throughout the Midwest.  The opportunity to compete for an annual berth in that game has fostered the development of programs at Big Ten schools, and added great excitement to our conference championship race over the years.  In short, the Rose Bowl is far more than a football game.  It is a great life experience for our players.  It is the most important external relationship that the Big Ten presently enjoys.
	Of course, in the late 1990s, the Big Ten decided to participate in the Bowl Championship Series arrangement.  To do that, we had to alter our Rose Bowl relationship by agreeing that our champion would not play in that game every year under certain circumstances.  Well, I believe that that decision was in the Big Ten's best interest and has been healthy for college football.  It came only after a long and difficult debate among our member schools.  In the end, we agreed to the changes needed to make the BCS and its benefits possible, but the presidents and chancellors of Big Ten institutions considered the adjustments to the Rose Bowl relationship to be substantial sacrifices that could only be justified if, one, they would produce an annual national championship game, and they were not likely to cause any significant damage to the Rose Bowl.
	With the Rose Bowl relationship as a backdrop, it is relatively easy to understand the position of the institutions of the Big Ten on a multi-game, NFL-style playoff for Division I-A college football.  Our presidents and chancellors have consistently and publicly opposed the implementation of such a system, as have the presidents and chancellors of the member institutions to the Pac-10 Conference and the Southeastern Conference.  Our concerns can be largely summarized in four points: one, the Big Ten universities believe that the bowl system has great value to the football communities and the local communities in hosting games.  While the Rose Bowl is longest standing of our bowl relationships, we value our ties with each of the bowls that annually host one of our teams.  A multi-game, NFL-style playoff is likely to siphon off the vast bulk, if not the totality, of television and sponsorship revenues that support the bowls.
	Two, the Big Ten is interested in maximizing the number of postseason opportunities for our student athletes and coaches.  A broad-based bowl system furthers that goal.  This year, some 700 football players at Big Ten institutions will have opportunity to compete in postseason games.  Our teams will play in games in Miami, Tempe, Orlando, Tampa, San Antonio, El Paso, and Nashville.
	Three, a multi-game playoff will have a detrimental impact on the regular season.  Among major sports in the United States today, college football stands alone in crowning its championship based almost exclusively on regular season performance.  The Big Ten has benefited greatly from the emphasis on the regular season.  This year, over 72,000 people on average attended our games, 30 of 44 were sellouts, and over 5 million Midwesterners and Americans attended these events.  Our regular season games have been attracted to fans who regularly pack our stadiums, and broadcasters who telecast these games throughout the country.  We have a traditional end-of-the-year rivalry, such as Ohio State and Michigan, that are of great interest, not only to Big Ten fans, but also to fans across the country.  Today, the regular season functions as a lengthy elimination tournament, therefore every game is important.  The Big Ten does not believe that alterations to the postseason structure that dilute the significance of the regular season are beneficial to the Big Ten as a league or to college football generally.
	Finally, the Big Ten believes that the bowl system is consistent with the academic mission of the Nation's colleges and universities.  While I cannot address all of the unfounded criticisms leveled at Division I-A football over the years, they do remind all of us in intercollegiate athletics that college football is football in the academic tradition.  The mission of Big Ten institutions is not only to turn out superb athletic teams, but to educate young men and women and prepare them for the challenges that lie ahead.  The presidents and chancellors of Big Ten institutions are keenly aware of their responsibilities as stewards of educational institutions entrusted to their care.  Their first duty is to the students who attend their respective universities, whether or not they are participants on athletic teams.  Given the competing interests that they must balance, and the numerous factors that they must weigh, I believe it is virtually impossible to second guess their conclusions.
	A final word needs be said about money.  Some claim that the bowl system persists because it enriches certain conferences.  The allegation is preposterous.  The amount of money that could be generated by an annual college football playoff dwarfs the revenues that are derived from bowl games.  Big Ten presidents and chancellors are fully aware of the economic potential of a college football playoff, yet they have consistently opposed a multi-game, NFL-style playoff, notwithstanding its revenue-generating potential.
	In sum, Big Ten presidents and chancellors have resolved this issue for the conference, as they have every other major athletic or academic question that has faced our 11 universities as a league over the years; namely, by carefully considering the myriad relevant factors and ultimately bringing to bear the wisdom that we believe should be expected of persons entrusted with the governance of our member universities.  We are confident the decisions that they have made concerning postseason football are best for the members of the Big Ten, and believe they are consistent with the interests of Division I-A as a whole.  I look forward to answering your questions.  Thank you.
	[The prepared statement of James E. Delany follows:]

PREPARED STATEMENT OF JAMES E. DELANY, COMMISSIONER, BIG TEN CONFERENCE

	Chairman Stearns, Chairman Barton, Ranking Member Schakowsky, and Members of the Subcommittee: My name is Jim Delany, and I am Commissioner of the Big Ten Conference.  I have held that position for the last 16 years.  Before assuming my current duties, I was Commissioner of the Ohio Valley Conference for 10 years.  I also served on the NCAA enforcement staff and, before beginning my career in intercollegiate athletic administration, served as counsel to the Judiciary Committee of the North Carolina Senate and as an attorney in the North Carolina Department of Justice.  During my college days, I played basketball at the University of North Carolina under Coach Dean Smith.  That was a wonderful experience for me, enabled me to get a first-rate education, and prepared me to seek a law degree, which I also received from North Carolina.  As a student-athlete, I twice had the opportunity to play in the NCAA Final Four, although the tournament was quite a bit smaller in those days.  I understand the thrill of competing for a national championship, and although we did not win a national championship while I was at North Carolina, playing in the Final Four was among the highlights of my athletic career.  I appreciate the opportunity to speak with you today about the post-season in Division I-A college football and to share with you the views of the Big Ten Conference about that subject.

I.	The Big Ten's relationship with the Rose Bowl
	The Big Ten's perspective on post-season football is rooted in the history of college bowl games.  The connection between members of the Big Ten Conference and the bowl system is as old as the bowls themselves.  The University of Michigan played Stanford in the first Rose Bowl game in January 1902 and began what has been for our institutions a long and treasured relationship with the Pasadena Tournament of Roses Association.  Since the 1946 season, with a few exceptions in recent years, the champion of the Big Ten Conference has been invited to play annually in the Rose Bowl against the champion of the Pacific-10 Conference.  It would be difficult to overstate the significance of that relationship to our conference, our member institutions individually, and our student-athletes and fans.  By the 1920s, the Rose Bowl was well-established not only as a major sporting event in the United States, but also as a part of the nation's New Year's Day celebration.  The opportunity to compete for an annual berth in that game has fostered the development of football programs at Big Ten institutions and added great excitement to our conference championship race over the years.  Not only does the Rose Bowl relationship permit our champion to play in a renowned post-season football game, but our student-athletes, coaches, and fans are able to enjoy the many activities of the Tournament of Roses.  In short, the Rose Bowl is far more than a football game; it is a great life experience, particularly for the student-athletes who are fortunate enough to participate.  We are proud of our association with the Rose Bowl and grateful for the many benefits that it has brought to our conference.
	At the same time, we like to believe that the Big Ten has helped the Rose Bowl build its tradition of excellence.  We annually have sent our champion, which is generally a highly ranked and highly regarded team, to play in the game.  Our fans have traveled great distances and in great numbers to the game, not only lured by the many events hosted by the Tournament of Roses and the warm weather of Southern California, but driven by great loyalty to and love for their favorite institution.  Each year our alumni and fans purchase ten of thousands of tickets, fill numerous hotel rooms, and support the local community by taking part in all aspects of the Tournament of Roses celebration.  The quality of our champion and the support it garners have helped the Tournament of Roses command broad national interest.  That, in turn, has made the Rose Bowl game attractive to television networks and generated revenues that have been returned to the participating conferences and sustained a number of charitable endeavors of the Tournament of Roses over the years.
	Over the last 58 years, the Big Ten has consistently nurtured its traditional relationship with the Rose Bowl.  In fact, until the mid-1970s, the Big Ten did not send any teams to bowl games other than the Rose Bowl.  This was not because we did not have deserving teams; our conference runner up was often ranked among the top ten teams in the nation and occasionally among the top five.  Yet our presidents, chancellors, and athletic administrators had such great admiration and affection for the Tournament of Roses and such a strong desire to make sure that our student-athletes' first aim was to win a Big Ten championship that we, as a conference, simply chose not to send non-champions to other bowl games, no matter how attractive those other games or how highly regarded our non-champion teams.  While I believe that the loosening of that rule in the 1970s was good for our conference and a great benefit to our student-athletes who play on excellent teams that are not fortunate enough to win our conference title, it remains the case today that a Rose Bowl berth is the focal point of our conference race.
	Of course, in the late 1990s, we decided to participate in the Bowl Championship Series arrangement.  To do that, we had to alter our traditional relationship with the Rose Bowl in two ways.  First, we had to amend our agreement with the Tournament of Roses to permit our champion to play in another bowl if it were ranked first or second in the nation and the national championship game was slated to be in another bowl.  Second, in fairness to the Tournament of Roses, we had to agree to permit the Rose Bowl the opportunity to host a national championship game once every four years.  That means that our champion will not play in the Rose Bowl when the national championship game is there unless it is ranked first or second.
	While I believe that the decision to participate in the BCS was in the Big Ten's best interest and has been healthy for college football, it came only after a long and difficult debate among our member institutions.  Some believed that our relationship with the Pasadena Tournament of Roses Association and the Rose Bowl game was too important to our conference to justify any tinkering.  In the end, we agreed to the changes needed to make the BCS and its benefits possible, but the presidents and chancellors of Big Ten institutions considered the adjustments to the Rose Bowl relationship to be substantial sacrifices that could only be justified because: (1) they would produce an annual national championship game and (2) they were not likely to cause any significant harm to the Rose Bowl.  Our presidents and chancellors remain committed to the Rose Bowl, are appreciative of its contributions to the Big Ten and to college football broadly, and have consistently stated that they do not wish to see the post-season in Division I-A altered in any manner that would have a negative impact on what they believe to be one of great institutions of intercollegiate athletics.

II.	THE BIG TEN'S VIEW ON A MULTI-GAME, NFL-STYLE PLAYOFF
	With the Rose Bowl relationship as backdrop, it is relatively easy to understand the position of the institutions of the Big Ten on a multi-game, NFL-style playoff for Division I-A college football.  Our presidents and chancellors have consistently opposed the implementation of such a system and done so publicly, as have the presidents and chancellors of the member institutions of the Pacific-10 Conference and the Southeastern Conference.  It is perhaps not surprising that these two conferences have taken positions similar to that of the Big Ten on this issue.  The Pacific-10 Conference has had a longer relationship with the Rose Bowl than the Big Ten.  With two exceptions since the beginning of the BCS arrangement, a current member of the Pacific-10 has played in every Rose Bowl game since 1920.  No doubt the members of the Pacific-10 have the same admiration and respect for the Rose Bowl as the members of the Big Ten.  The Southeastern Conference is similarly situated with a bowl partner.  It has had a long relationship with the Sugar Bowl in New Orleans that, in many respects, mirrors the Big Ten's relationship with the Rose Bowl.
	Aside from their venerable football traditions and a history of superlative teams, coaches, and players, each of these conferences is similar in that a bowl relationship has occupied a central position in the conference's history and development.  Those bowl connections have helped those conferences reach the levels of excellence that they have attained over the years.  University administrators, alumni, and fans have great affinity for these games and have continued to support them year after year.  Certainly no one in the Big Ten is anxious to see the implementation of a post-season system that is incompatible with or harmful to the bowl system.  That is not to suggest that the presidents and chancellors of our conference or any other league are inflexible.  We in the Big Ten, as well as the representatives of other conferences, have always been open to new ideas and approaches if they are consistent with the overall objectives of intercollegiate athletics and will improve college football.  That is why the Big Ten ultimately agreed to participate in the BCS arrangement, notwithstanding the need to adjust our traditional relationship with the Rose Bowl.
	A multi-game, NFL-style playoff for Division I-A, however, presents substantively different concerns that are significantly more problematic for the Big Ten than the changes required to make the BCS a reality.  While the BCS arrangement required some incremental and, from the Big Ten perspective, important alterations to traditional post-season matchups, a multi-game playoff would require fundamental structural changes that, in our view, do not serve the interests of the bowls, student-athletes, the Big Ten Conference, or college football as a whole.  The reasons that our presidents and chancellors have opposed such a playoff are generally the same as those offered by proponents of the bowl system generally, but they bear repeating here because our special relationship with the Rose Bowl, we believe, makes those concerns concrete and compelling in a way that abstract discussion does not.

A.	A Multi-Game, NFL-Style Playoff Will Likely Harm The Bowls.
1.	It Is Not Clear That The Bowl System Can Survive Adoption Of A Multi-Game, NFL-Style Playoff.
	As I have previously stated, the Big Ten Conference has taken great pride in its relationship with the Rose Bowl over the years and has done everything that it could to preserve and nurture the vitality of that game.  While the Rose Bowl is the longest standing of our bowl relationships, we value our ties with each of the bowls that annually hosts one of our teams.  Often our runner up teams play in one of the other fine bowls that are part of the BCS arrangement - the Fiesta, Orange, and Sugar Bowls - and even those teams from our conference that do not qualify for a BCS game enjoy the experience of post-season play.  For example, we have been fortunate to have a long relationship with Florida Citrus Sports, the host of the Capital One Bowl in Orlando.  That game has provided many of our student-athletes with a rewarding and memorable post-season experience.  We regularly send teams to play in other fine bowls around the country as well.  This year, seven Big Ten squads have qualified to play in bowl games.  That means that approximately 700 of our student-athletes will have the opportunity to compete in the post-season and to enjoy the many attractions of the various communities that annually host bowl games.
	A multi-game, NFL-style playoff will inevitably affect the bowl system.  While we prefer to focus on the many benefits that the bowls provide, it would be na�ve to ignore the fact that bowl games have an economic component and that the host committees are independent organizations that must respond to their own economic imperatives.  Much of the money that makes bowl games economically viable comes from television and sponsorships.  A multi-game, NFL-style playoff is likely to siphon off the vast bulk, if not the totality, of the television and sponsorship dollars that are now supporting the bowl system, as the media and fan attention is drawn away from the bowls and focused squarely on the playoff games.  The result, we in the Big Ten fear, would be the demise of some number of bowl games and perhaps the entire system itself.
	The suggestion is often made that a multi-game playoff could be married with the bowl system in such a way to achieve both the goal of an undisputed national champion and preservation of the bowl games.  In our view, there is no workable way to accommodate such a playoff format within the confines of the bowl system.  The two systems are incompatible and operate with entirely different philosophies, a point that I further discuss below.  But logistical considerations alone amply demonstrate that any melding of the bowls with a multi-game playoff format is not feasible.  Bowls attract teams and fans to distant cities and offer many activities and events designed to cater to their interests and provide an enjoyable and memorable experience for all participants.  One of the reasons that bowls often enter into relationships with specific conferences is predictability.  The bowl can be certain that a particular conference will provide an attractive team with an energetic fan base that will travel to the game site.  That predictability is lost with a multi-game playoff format.  Fans cannot be expected to travel to various locales around the nation on a weekly basis during the month of December.  Bowls hosting playoff contests cannot plan in advance because they will not know until one week before the game who will be participating.  The inevitable result will be that early round playoff games will be played at the home field of one of the competing institutions and only the championship game will be played at a neutral site.  That is exactly how the NCAA football championships and NFL playoffs operate.  There is no reason to believe that Division I-A football is immune from the realties that impel every other national football playoff to adopt such a format.
	Perhaps of greater concern, however, is that attempting to turn the bowl games into playoff contests will inevitably alter the character of the bowls.  As I have noted, the bowls are not merely venues for football games; they are events that are built around football games or that include games as the centerpiece of a larger celebration.  Again, the Tournament of Roses provides a good example.  The Pasadena Tournament of Roses Association began in 1890, some 12 years before the first Rose Bowl game was played.  While the Rose Bowl game is a wonderful part of the Tournament of Roses, it is not the only event that draws many people.  Every New Year's Day, millions tune in to watch the annual Rose Parade in Pasadena.  Television coverage is extensive, and many participate in the festivities.  Although athletic administrators tend to focus on sporting events, for many, the Rose Parade is synonymous with New Year's Day.  Tournament of Roses officials, however, cannot be expected to shift the dates of the Rose Parade around annually to accommodate the needs of a Division I-A playoff.  Other bowls with signature events attached to them will face exactly the same difficulties.  Either the playoff will force the abandonment of such events or the decoupling of them from the games.  In either event, a unique feature of the bowls will be lost.
	Part of the great attraction of the bowl system is that coaches, players, and fans spend several days in a locale enjoying the hospitality of the host community and taking in the region's attractions and flavor.  Bowl committees are able to make these events work because many volunteers and local organizations support their activities.  That reliance on community assistance and volunteer labor means that bowls must bend to the realities of the calendar.  If the connection between the game and the surrounding activities is severed, then the ability of the bowls to attract the scores of volunteers necessary to stage the game will be significantly compromised.  Coaches, who will rightly be worried about advancing to the next round of the playoffs, will not be interested in taking their teams to a city well in advance of a game, especially if there are no other activities associated with the game.  There will be no particular reason for fans to travel to the bowl site, even assuming that their pocketbooks and schedules will allow such travel.  In short, the bowls will become mere game venues.  That has never been the sum of the bowl experience, but it is a likely outcome of any attempt to shoehorn a multi-game playoff system into the bowl structure.  It is doubtful that many bowl games could survive under those circumstances, and certainly the presidents and chancellors of the Big Ten have not been willing to gamble with one of the great traditions of college football on such a long-shot approach.

2.	Alternative Playoff Formats Pose Substantial Difficulties For The Big Ten.
	We are often asked whether some other approach using the bowl system, short of a multi-game, NFL-style playoff, might be a suitable means of determining a national champion.  For example, there are some who suggest that a single game played after the regular bowls - a so-called "Plus One" model - could be incorporated into the bowl system so that a national champion can be crowned when there are three or more unbeaten teams or once-beaten teams at the end of the season that all have arguable claim to the title.  Again, this option may be more attractive in the abstract than in its implementation and, in the view of the presidents and chancellors of the Big Ten, could potentially affect the bowl system in many of the same ways as a multi-game, NFL-style playoff.
	Last year provides a good example of some of the difficulties with a "Plus One" approach from the Big Ten perspective.  Unbeaten USC was the Pacific-10 champion and ranked number 1 at the end of the 2004 season.  Oklahoma and Auburn were ranked 2 and 3 respectively and were also undefeated.  To varying degrees California, Texas, and Utah could also claim to be among the top 4 teams in the nation.  Setting aside the difficulty of choosing a fourth team, a challenge that could conceivably be surmounted, there remains a substantial issue about how teams are slotted into bowl games and which teams are affected.
	Michigan was the Big Ten champion in 2004 and was ranked 12th in one poll and 13th in the other at the end of the regular season.  That was one of the lower-ranked Big Ten champions in recent years, but nonetheless, Michigan had a very fine squad.  Consistent with our relationship with the Rose Bowl and our commitment as part of the BCS arrangement, we expected that our champion would play in the Rose Bowl game, which it did.  While Michigan did not have the opportunity to play top-ranked USC, as it would have had there been no BCS arrangement, we in the Big Ten understood that was a possibility and were willing to accept that contingency in the interest of making a national championship game possible.  Michigan played a very highly regarded Texas team in the Rose Bowl in what turned out to be one of the greatest Rose Bowl games ever played - a game that was decided on a field goal as time expired.
	A post-bowl championship game in 2004, however, would have had a substantial impact on the Big Ten Conference.  Because USC was ranked number 1 and was champion of the Pacific-10, it would have been slotted to play in the Rose Bowl.  Presumably, Oklahoma and Auburn would have played against one another in a different bowl game.  There is simply no way to resolve the national championship question in a Plus One model without pairing those two teams in a game.  But the far more difficult question and the one that has direct impact on the Big Ten is: Who does USC play in the Rose Bowl?  On the one hand, an unbeaten Utah or once-beaten Texas and California squads, all of which had better records and were ranked higher than Michigan, could claim some entitlement to play against USC.  Moreover, Oklahoma and Auburn could both say that as a matter of fairness USC should have to play against a highly ranked opponent in order to advance to the post-bowl championship.  After all, why, they might argue, should USC get to play a 12th ranked Michigan when the number 2 and 3 teams must play against other in order to advance to the championship?  In short, the so-called "Plus One" model, if it is to provide an undisputed national champion, appears to necessitate a seeding of teams and slotting in bowl games accordingly.  But that is precisely the problem for the Big Ten in this scenario and why any "Plus One" arrangement poses significant concerns to our presidents and chancellors.
	The Big Ten was willing to participate in the BCS arrangement and to alter its relationship with the Rose Bowl in a manner that it believed was good for college football and would not harm its relationship with the Rose Bowl.  We agreed to play in another bowl when our champion was ranked 1 or 2 in order to facilitate a national championship game.  That permitted our champion to play for a national title, but we also noted that we would be depriving the Rose Bowl in that situation of a highly ranked and attractive team.  In recognition of the Rose Bowl's sacrifice in that circumstance, we also agreed that our champion would not play in the Rose Bowl every fourth year, unless it was ranked 1 or 2, so that the Rose Bowl could be certain of hosting a national championship game.  We did not agree - and the Tournament of Roses did not ask us to do so - to vacate our slot when our champion would have ordinarily played in the Rose Bowl.  Had that been a condition of our involvement in the BCS arrangement, I seriously doubt that our presidents and chancellors would have approved our participation at that time.  As I noted, some of our member institutions felt that even the changes that we did make were too great.  A "Plus One" format would potentially call on the Big Ten to make a substantially greater sacrifice with a far more significant impact on our conference and its member institutions.  I cannot say that our presidents and chancellors would never consider the alternative.  As I noted, we are always open to new ideas and approaches.  But as of today, any iterations of the "Plus One" concept that have been bandied about in the media would not satisfy the test that the Big Ten presidents and chancellors have historically applied when addressing our relationship with the Rose Bowl.  Unless the substantive issues that are posed by the "Plus One" format are resolved in a way that meets that test, I believe that it would be difficult for the Big Ten to support such an alternative.

B.	A Multi-Game, NFL-Style Playoff Is Inconsistent with the Goal of Maximizing Post-Season Opportunities for Our Student-Athletes.
	A close corollary to the Big Ten's concern about potential harm to the bowls is our fear that a multi-game, NFL-style playoff will reduce the number of post-season opportunities for our student-athletes, coaches, and fans.  This year, some 700 football players at Big Ten institutions will compete in post-season bowl games.  Many will visit areas of the country in which they have never traveled and be offered first-rate hospitality from bowl committees and their armies of volunteers.  While we have only one conference championship and one Rose Bowl berth to offer, we routinely turn out multiple ranked teams.  Because the record of our teams against non-conference opposition in recent years has been superb, we will often have a substantial majority of our teams finishing the season with winning records.
	The presidents and chancellors of Big Ten member institutions have been concerned about maintaining post-season opportunities for as many of our teams as possible.  A broad-based bowl system furthers that goal.  This year, we are fortunate to place two teams in the BCS bowl games.  Penn State, our conference champion, will travel to Miami for the Orange Bowl game, and Ohio State will play in the Fiesta Bowl in Tempe.  In addition, we expect to have runner up teams in the Capital One Bowl in Orlando, the Outback Bowl in Tampa, the Alamo Bowl in San Antonio, the Sun Bowl in El Paso, and the Music City Bowl in Nashville.  We also often are able to place a team in the Motor City Bowl in Detroit.  Each of these bowls offers a distinctive experience for our student-athletes, and we are not anxious to see any of them jeopardized by a multi-game playoff structure.

C.	A Multi-Game, NFL-Style Playoff Would Have A Detrimental Impact On The Regular Season In The Big Ten And In All Of College Football.
	The concern about the impact of a multi-game playoff on the regular season in college football cannot be overemphasized.  Among major sports in the United States today, college football stands alone in crowning its champion based almost exclusively upon regular-season performance.  Protection of that unique regular season has been a significant concern of the presidents and chancellors of the Big Ten.
	I have spoken about our historical relationship with the Rose Bowl and the place that it has in our conference.  The Rose Bowl, however, cannot be separated from our regular season championship race.  The first goal of every Big Ten team is a conference championship.  I suspect that the same is true in other conferences as well.  Not only does a Big Ten championship carry with it a berth in the Rose Bowl, but it has been a prerequisite for any of our teams with national championship aspirations.  The same is true of other conferences as well.  While I have not made an exhaustive study of the issue, since 1970, no team that was a member of a conference has won a national championship in Division I-A football without first winning its conference title.  Therefore, a conference championship in Division I-A football remains a stepping stone to a national title.
	The Big Ten has benefited greatly from this emphasis on conference championships.  Our regular season games have been attractive to fans who regularly pack our stadiums and to broadcasters who telecast those contests around the nation.  We have traditional end-of-the-year rivalries, such as Ohio State-Michigan, that are of great interest, not only to fans of Big Ten institutions but also to fans across the country, precisely because they often have considerable bearing on our conference championship and thus the national picture as well.  A multi-game playoff format, however, will transform a season-ending showdown between an unbeaten Ohio State and unbeaten Michigan into a game over playoff seeding.  The regular-season game will not have nearly the same significance in determining the national championship as it does today, especially given the prospect that the same teams might meet again in a few weeks in a game that has arbitrarily been invested with much greater significance.  Today, the regular season functions as a lengthy elimination tournament.  Therefore, every game is important.  The presidents and chancellors of Big Ten universities do not believe that alterations to the post-season structure that dilute the significance of the regular season are beneficial to the Big Ten as a league or to college football generally.

D.	The Bowl System Is Consistent with the Academic Missions of Big Ten Universities.
	Over the years, much has been written about the impact of intercollegiate sports on the academic missions of the nation's colleges and universities.  Many have been critical of major college sports in general, and Division I-A football in particular, for what are perceived as variances between the values espoused by the nation's colleges and universities and the actual operation of major college athletic programs.  I cannot address these criticisms here, although I believe most of them to be unfounded.  Nonetheless, these criticisms do have a useful function in framing the debate about post-season football.  That function is to remind all of us who have the privilege of serving in intercollegiate athletics - from presidents and chancellors, to conference commissioners, athletic directors, and coaches - that we are not engaged in a purely athletic endeavor.  College football is not an amateur version of the National Football League, no matter how often that analogy might be trumpeted.  Rather, college football is football in the academic tradition.  The job of Big Ten institutions is not to turn out superb athletic teams but to educate young men and women and prepare them for the challenges that lie ahead.
	The presidents and chancellors of Big Ten institutions are keenly aware of their responsibilities not merely as overseers of athletic departments but as stewards of the educational institutions entrusted to their care.  Their first duty is not to the fan or sports columnist who desperately desires finality to the national championship picture in college football but to the students who attend their respective universities and, by extension, to their parents who sacrifice to pay tuition, and in most cases, state taxpayers who provide substantial support for our institutions and rightfully expect that the core academic missions of Big Ten universities will be each administration's overriding concern.  At bottom, then, decisions made by Big Ten presidents and chancellors concerning the format of post-season football, the needs of their various universities, and the priorities that they wish to establish for themselves as a league reflect considered educational judgment.  Given the competing interests that they must balance and the numerous factors that they must weigh, I believe it is virtually impossible to second-guess their conclusions.
	If, as some of our critics have charged, college football has strayed too far from the original model envisioned for amateur athletics in the academic tradition, then we hardly hasten a return to that model by expanding the Division I-A post-season to a multi-game, NFL-style playoff format.  If, on the other hand, we have hewn to the aims that have animated intercollegiate athletics at least since the founding of the NCAA, as I believe we have, then there is no reason to tamper with the delicate balance that has been struck.
	A final word need be said about money.  Critics of college football line up on both sides of this issue.  Some claim that the bowl system persists and is not jettisoned for a playoff format because the bowl system enriches certain conferences.  That allegation is preposterous.  The amount of money that could be generated by an annual college football playoff dwarfs the revenues that are derived from the bowl games.  Thus, were money the motivating factor, the bowl system would have been abandoned many years ago.
	Other critics have said that college football is not maximizing its revenues by maintaining the bowl system.  That statement may or may not be accurate.  Any prediction about whether overall revenues would increase by the adoption of a playoff must also account for any reduction in revenues from regular season football as a result of its relative decline in importance in the national championship picture.  I do believe, however, that a multi-game playoff would be immensely popular with television networks and sponsors and would generate substantial revenues.  The Big Ten presidents and chancellors are fully aware of the economic potential of a college football playoff.  Yet they have consistently opposed a multi-game, NFL-style playoff notwithstanding its revenue-generating potential.
	In sum, the Big Ten presidents and chancellors have resolved this issue for the conference as they have every other major athletic or academic question that has faced our 11 institutions as a league over the years - namely, by carefully considering the myriad relevant factors and ultimately bringing to bear the wisdom that we believe should be expected of persons entrusted with the governance of our member universities.  We are confident that the decisions that they have made concerning post-season football are best for the members of the Big Ten and believe that they are consonant with the interests of Division I-A as a whole.

	MR. STEARNS.  I thank the gentleman.  Dr. Khayat.
	MR. KHAYAT.  Mr. Chairman and members of the committee--I apologize.  Mr. Chairman and members of the committee--am I on the microphone?
	MR. STEARNS.  I don't think your button is on.  Well, I don't know.  Just bring it a little closer, maybe.
	MR. KHAYAT.  Okay.  Am I on now?
	MR. STEARNS.  That is perfect.
	MR. KHAYAT.  Okay, sir.
	MR. STEARNS.  Thank you.
	MR. KHAYAT.  Thank you.  Mr. Chairman and members of the committee, ladies and gentlemen, I am Robert Khayat and for the past 11 years I have served as chancellor of the University of Mississippi.  I join my colleagues in thanking you all for this opportunity to talk about a matter of national interest.  My comments are my own.  I have really not been licensed to speak for any particular group, but I, of course, have met with the Southeastern Conference presidents and chancellors, Commissioner Mike Slive, who is with us, and with the presidential oversight committee for the BCS.  Over the past three years, we have had numerous meetings, conference calls, communications of different sorts, and the comments I make will be influenced by those experiences.  They will also be influenced by my personal experience.  I was a college athlete, a scholarship athlete, who played in two Sugar Bowls and a Gator Bowl, and then in professional football.  So I have had some experience with the subject we are talking about today.
	As you know, the BCS was organized, really, with one goal in mind, and that was to try to determine a national champion for Division I-A football.  With 117 schools involved in the process, it is important to note, that although these schools are NCAA members, the BCS is not an NCAA organization, and sometimes members of the public get confused about that point.  What I will try to do is summarize for you all the perceptions regarding the issues and concerns and opportunities that we discussed in the oversight committee and in the Southeastern Conference, and I am going to try to avoid being redundant with the comments that others have made.
	I can tell you that without exception, and in the face of cynical comments, the presidents and chancellors were unanimous in asserting and believing that our first concern must be protecting the academic integrity of our universities.  We are opposed, without exception, to any erosion of our primary mission, which is providing high-quality educational opportunities for all of our students, including our student athletes.  If you saw the article in the New York Times this week about University High School, which enables athletes to, apparently by correspondence and without physically appearing at a school, receive enhanced GPAs and grade reports, you know that there is reason for concern about protecting academic integrity.  When you think about the amount of money that is being spent on the arenas, on the support facilities, training facilities, on the compensation levels of the athletics-related personnel, then you quickly note that athletics can easily drive the universities.  In my opinion, and I think the opinion of every university president in America, that would be a terrible mistake, because we do exist primarily to provide educational opportunities.  Athletics enhance what we do.  And if they are integrity-based and properly managed, then they can bring great value to a university.  But athletics out of control can be very detrimental to a university.
	We were concerned about some of the items mentioned by predecessors.  First and foremost, in the Southeastern Conference, we are concerned about our conference.  Ole Miss is a charter member of the Southeastern Conference.  The University of Mississippi athletics department is an auxiliary.  It is self-supporting.  Our budget would not be sustainable without our participation in the Southeastern Conference.  So we are very sensitive about protecting the Southeastern Conference.  We are sensitive about the Southeastern Conference championship football game.  It is so popular in the southeast, that in April the arena is sold out before anybody knows who the teams are going to be.  We have relationships with eight bowls.  Having played in bowls, I can tell you that of all of the college football games, high school football games, and professional football games that I played in, most vividly I remember the Sugar Bowl in January 1958, the Gator Bowl in December 1958, and the Sugar Bowl in 1960.  Those games stand out.  So for these college athletes from these schools who go to these 28 bowls, the bowl experience is going to be probably the event that they are going to remember most from their college football years.
	With regard to the financial issues associated with bowls, we have been in seven bowls in the 11 years I have served as chancellor, and only in the Cotton Bowl did we break even with regard to the expenses related to participation.  That is not to suggest that a lot of money doesn't pass when you move to the BCS levels of the top four bowls.  I would say to you that, as we talked about the Bowl Championship Series at the Southeastern Conference level, we had a lengthy discussion about it.  And our presidents came down-there are 12 of us-eleven expressed openly that they would prefer to terminate the BCS.  Completely terminate it, go back to the pre-BCS arrangement, than to move toward a playoff system.  I look forward to answering your questions.
	[The prepared statement of Robert Khayat follows:]

PREPARED STATEMENT OF ROBERT KHAYAT, CHANCELLOR, THE UNIVERSITY OF MISSISSIPPI

	Mr. Chairman, members of the committee, ladies and gentlemen: 
	I am Robert Khayat, Chancellor of The University of Mississippi.  Thank you for the opportunity to discuss with you a matter of national interest. Please know that my comments are my own and I am here in an individual capacity.  Nothing I say is intended to be representative of the SEC or of the Bowl Championship Presidential Oversight Committee. 
	The BCS has as its sole reason for existing an effort to determine annually the National College Division IA football champion.  There are 11 conferences, Notre Dame, and 116 other universities that now comprise the BCS.  The BCS is not an NCAA organization, although each member of the BCS is a member of the NCAA. 
	It was my privilege to serve as the SEC presidential representative to the BCS Presidential Oversight Committee.  Along with Commissioner Mike Slive, I participated in numerous meetings and conference calls regarding the status and future of the BCS.  
	I will attempt to summarize for you my perceptions regarding the issues, concerns, and opportunities discussed at these sessions.  
	1.  The presidents and chancellors were unanimous in asserting and believing that our first concern must be protecting the academic integrity of our universities.  All of us are opposed to any erosion of our primary mission - providing high quality educational opportunities for all of our students, including our student athletes.  
	2.  All of us are committed to protecting and strengthening our conferences.  The SEC enables 5000 student athletes to compete in 20 intercollegiate sports annually and to have opportunities to pursue meaningful academic program.  For most of us, football provides funding for all sports - men and women.  
	3.  In the SEC we conduct an annual football championship game in Atlanta.  The people of the southeast place a high value on that game.  Proof of its importance is found in the fact that the arena is sold out in the spring before anyone knows who the two teams will be.  
	4.  Each of the universities is eligible to participate in post season bowls.  Many of the conferences have relationships with more than one bowl. 
The NCAA has certified 28 bowls.  The communities that host those bowls are heavily invested in the annual games.  College football players never forget the experience of bowl participation and university officials know that bowl participation adds great value to the life and reputation of the schools. 
Members of the BCS Presidential Oversight Committee repeatedly expressed the importance of protecting and strengthening the bowls. 
	5.  The current BCS format seeks to place the #1 and #2 teams in the end-of-season rankings in the BCS game.  The site of the game is rotated among the Orange, Sugar, Fiesta, and Rose Bowls. 
	6.  Following the 2006 bowl games, the format anticipates that the end-of- season #1 and #2 teams will play the BCS championship game one week after the new year's weekend bowl games.  That game is scheduled to be played at Miami, New Orleans, Tempe, and Pasadena.  Therefore, each of these cities will host their traditional bowls and every four years the BCS game will be played at one of these sites.  
This format was agreed upon by the entire BCS Oversight Committee. 
	7.  As you know, there is a great deal of discussion about a national playoff structure that would extend football season well into January.  It is my belief that most if not all presidents and chancellors oppose a playoff format for several reasons: 
a.  The season would be extended into January and, therefore, intrude upon the spring semester at most schools and the basketball seasons at all schools. 
b.  There is no reason to believe that a playoff format would produce an undisputed national champion.  For example, note that what has become the Final Four first had a 16-team format that evolved to 32 teams, then 64 teams, and now 65 teams.  
c.   We quickly confront conflict with the first six points above if we move to a playoff system. 
d.  It is believed that if we pursue an NFL style playoff, some of the uniqueness of college football will be lost. 
	8.  There are a number of presidents and chancellors who would prefer to terminate the BCS rather than compromise academic integrity, the strong traditions of our conferences, or reduce the importance of traditional bowl games.  
	Perhaps I should end my opening and try to respond to your questions. 

	MR. STEARNS.  I thank you, Doctor.  And I understand that you played for the Redskins.
	MR. KHAYAT.  Yes, sir, I did.
	MR. STEARNS.  From 1960, I guess, to 1963.
	MR. KHAYAT.  Yes, sir.
	MR. STEARNS.  And that was an illustrious group of individuals.  I have a got a list of some of the players there that have gone on to better and bigger things.  So it is nice to have sort of a person who has played for the Redskins to testify.
	MR. KHAYAT.  Thank you.  When you are short on football talent, it is nice to have other things that you can do.
	MR. STEARNS.  Right, I got you.  Mr. Junker, welcome.
	MR. JUNKER.  Mr. Chairman and members of the subcommittee, my name is John Junker and I serve as president and chief executive officer of the Fiesta Bowl.
	MR. STEARNS.  And I think I need the mic just a little closer, and I think you have it on, don't you?
	MR. JUNKER.  Thank you, Mr. Chairman.
	MR. STEARNS.  Yes, there you go.
	MR. JUNKER.  My name is John Junker.  I serve as president and chief executive officer of the Fiesta Bowl and the Insight Bowl in Tempe, Arizona.  Thank you for the opportunity to appear before you today to offer a perspective of our work and the nature of our business and our efforts to serve our customers and college football.  I am in my 25th year of work at bowl games, which has included my current service at the Fiesta Bowl and Insight Bowl, as well as service previously at the Sun Bowl, the Nation's second oldest bowl game.  I hope that my service at a variety of different bowl games in different markets will provide the subcommittee with helpful insights.
	I approach our work together today believing that we are unanimous in our intentions to preserve and improve the treasure that college football has become to the players, coaches, fans, communities, and bowl games who make our sport possible.  As some of you may be aware, the Fiesta Bowl, now a BCS member and one of the four largest bowl games, has not always enjoyed its current stature.  We began as the Nation's smallest bowl game in 1971.  Interestingly, our first broadcast contract was for a meager $500.  Despite these modest beginnings, volunteers in Arizona, by the thousands, have embraced the Fiesta Bowl and Insight Bowl step by step.  They have helped to ensure its financial success.  In our early years, many college football programs were willing to take a risk and participate in a lesser known bowl game, and in so doing provide us the opportunity to serve their postseason needs.  Of course there have been occasions when the Fiesta Bowl was the recipient of some old-fashioned good luck in its ability to assemble some remarkable football games.  In my opinion, the single most important factor in the Fiesta Bowl's success has been its ability to retain and exercise local control of our product.  Not unlike other businesses, ours is a business that must have the expertise and flexibility to respond to the needs of our customers in a swift and efficient manner.
	In the limited universe of college football bowl games, I firmly believe that the 28 bowl game volunteer boards and managers are best suited to respond in different but effective ways to their customers.  Although I won't claim perfection, I will tell you that independent business units that are represented by bowl games are by their nature very effective at serving the interests of our customers and the athletic conferences and other member universities who utilize our service.  Simply stated, the current model of 28 bowl games serving the interest of 56 universities may at times appear to be complex and imperfect, but that really is the nature of a marketplace where local control is most evident.  In reality, they manage to independently serve the interests of varying customers in a multitude of different ways quite effectively.  Our nonprofit organization manages, as I told you, both the Fiesta Bowl, which has hosted five national championship games, and the much smaller yet very important Insight Bowl.  Teams contending for national championship games will always have a place to play, and our community hopes to continue in that tradition.  But it is the team working to build their football programs who most need to access bowl-based postseason activities.
	What is now our Insight Bowl was once a bowl destination for Kansas State University, when their legendary coach, Bill Snyder, was meticulously attempting to build the winner out of a football program that the Nation's media reasonably labeled the worst in the land.  Coach Snyder was effusive in his praise of the importance of that bowl game to his work and its importance to his entire university.  It worked too.  Bill Snyder engineered what many observers say is the greatest turnaround in college football history, and he made Kansas State a consistent winner.  And winning a bowl game, however humble the reputation of that game, is an important watermark for college football programs struggling to gain momentum and build for a successful future.
	Texas and Southern California will square off in a championship game in less than a month.  It will be a great event.  But Texas and USC, or their successors, as championship contenders, will always be well provided for in any system, because they are the best and the brightest of a particular season.  Equally important, however, is that college football's postseason continue to offer the invaluable postseason experience to deserving programs and colleges who may not ever have the resources to compete in the national championship game.  A perfect example is our upcoming Insight Bowl.  This game will feature six and five Arizona State against seven and four Rutgers.  This is only the second bowl appearance for Rutgers University in their history.  And Arizona State had to kick a last second field goal to qualify.  I promise you, those teams' appearance in our young but growing bowl game is just as important to those programs as is a national championship game to Texas and USC.
	It is the local control of our enterprise that enables 28 different bowl games to address the very different needs of universities and their football programs that are a wide variety of positions on the success curve.  I remain unconvinced that a college football playoff system would take care of the needs of fledgling programs because of the propensity of a centralized business approach that a playoff system would represent to simply address the needs of only the winningest programs in our sport.
	Local control of bowl games is important for one final reason.  Last year, the Fiesta Bowl donated nearly $400,000 to various charities in our communities, including our role as the State's largest sponsor of the 100 Club, the organization that supports the charities to serve the families of fallen firefighters and police officers, as well as dozens of other local charities, including nearly $100,000 in scholarship awards.  In a system that involved local control and participation by a large number of volunteers, bowl games have been effective community stewards in participating in hundreds of charitable endeavors.  Communities that support bowl games in turn support, not just the sport of college football, but dozens of deserving community-based charities.  These points conclude my remarks.  Thank you for the opportunity to appear.
	[The prepared statement of John Junker follows:]

PREPARED STATEMENT OF JOHN JUNKER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, FIESTA BOWL

Mr. Chairman and members of the subcommittee, my name is John Junker and I serve as President and Chief Executive officer of the Fiesta Bowl and the Insight Bowl in Tempe, Arizona.  Thank you for the opportunity to appear before you today to a perspective of our work and the nature of our business in our efforts to serve our customers in college football.  I am in my 25th year of work at bowl games that has included my current service at the Fiesta Bowl and Insight Bowl, as well as service at the Sun Bowl--the nation's second-oldest bowl game.
 I hope that my service at a variety of different bowl games in different markets will provide the subcommittee with insights helpful to the subject under consideration. 
While it is likely that a subject so broad and colorful as college football and its post-season will evoke many varying and even conflicting opinions, please accept my gratitude for interest in our efforts.  To learn of your concerns and possible ways to improve our work, as well as to share with you some of our demonstrated successes at nurturing and growing the sport of college football and its postseason.  While we may not be in agreement on all issues, I approach our work together today believing that we are unanimous in our intentions to preserve and improve the treasure that college football has become to the players, fans, and communities who make our sport possible.
As some of you may be aware, the Fiesta Bowl has not always enjoyed its current stature.  We began as the nation's smallest bowl game in 1971.  Our first game featured Arizona State University vs. Florida State University and our payout was, at the time, a record for a first-year bowl game of $168,000 per team.      Interestingly, our first broadcast contract was for a meager five hundred dollars ($500.00) for our game's radio rights.  Despite these modest beginnings, people in Arizona, by the thousands, have embraced the Fiesta Bowl and step by step helped ensure its financial success.  In our early years, many college football programs were willing to take a risk and participate in a lesser-known Bowl game and in so doing, provided us the opportunity to serve as their post-season host.  Of course, there have been occasions when the Fiesta Bowl was the recipient of some "old-fashioned good luck" in its ability to assemble some remarkable football bowl games. 
In my opinion, the single most important factor in the Fiesta Bowl's success has been its ability to retain and exercise local control of its product.  Not unlike other corporate entities, ours is a business that must have the expertise and flexibility to respond to the needs of our customers in a swift and efficient manner.  In the limited universe of college footbalI bowl games, I firmly believe that the 28 bowl game volunteer boards and managers are best suited to respond in different but effective ways to serve their customers. As a student, I often heard my political science professors state the maxim, "all politics are local" when describing the method by which decisions are most effectively made.  And although I won't claim perfection, I will tell you that that independent business units that are represented by bowl games are by their nature, very effective at serving the interests of our customers at the athletic conferences or other member universities who utilize our services. 
   Simply stated, the current model of 28 bowl games serving the interests of 56 universities may at times appear to be complex and imperfect, but that is the nature of a marketplace where local control is most evident.  In reality, they manage to independently serve the interests of varying customers in a multitude of different ways quite effectively.
	Our non-profit organization manages both the Fiesta Bowl, which has hosted five national championship games, and the much smaller, but yet very important Insight Bowl.  Teams contending for national championship games will always have a place to play and our community hopes to continue in that tradition, but it is the teams working  to build their football programs who most need access to a bowl-based post-season.  
What is now our Insight Bowl was once the bowl destination for Kansas State University when their legendary coach Bill Snyder was meticulously attempting to build a winner out of a football program that the nation's media reasonably labeled the worst in the land.  Coach Snyder was effusive in his praise of the importance of that bowl game to his work and its importance to his entire university. It worked, too--Bill Snyder engineered what many observers say is the greatest turnaround in college football history, as he eventually made Kansas State a consistent winner and bowl participant.   And winning a bowl game, however humble the reputation of that game, may be an important watermark for college football programs struggling to gain momentum and to build for a successful future.
Texas and Southern California will square off in a championship game in less than a month; and it will be a great event, but Texas and USC, or their successors as the championship contenders, will always be well-provided for in any system because they are the best and the brightest of a particular season.  Equally important, however, is that college football's postseason continue to offer the invaluable postseason experience to deserving programs who may not ever have the resources or talent to compete in a national championship game. 
A perfect example of this circumstance can be found with the Insight Bowl.  This Bowl game will be held on December 27th and will feature 6-5 Arizona State against 7-4 Rutgers.  This is only the second appearance for Rutgers University in their school's history, while Arizona State had to kick a last-second field goal to qualify for play in our bowl.  I promise you, that those team's appearance in our young but growing bowl is just as important to those programs as a national championship game is to Texas and USC.
It is the local control of our enterprise that enables 28 different bowl games to address the very different needs of universities and their football programs that are at a wide variety of positions on the success curve.  I remain unconvinced that a college football system would take care of the needs of fledgling programs because of the propensity of centralized business approach that a playoff system would represent to simply address the needs of the winningest programs in our sport.  I find the current bowl system that allows for a variety of different needs to be met for a variety of different customers to be much more appealing.
My last point that I would request for your kind consideration is the fact that the current bowl system, once again, under local control, contributes not only revenues to benefit participating universities with their scholarships for non-revenue sports, but also contributes millions of dollars to numerous local deserving charities.
Last year, the Fiesta Bowl donated nearly $400,000 to various charities in our communities including our role as the state's largest sponsor of the 100 Club, the organization that supports the charitable needs of fallen firefighters and police officers, as well as dozens of other local charities, including nearly $100,000 in scholarship awards.  In a system that involves local control and participation by large numbers of volunteers, bowl games are effective community stewards in participating in hundreds of charitable endeavors.  Communities that support bowl games in turn support not just the sport of college football, but dozens of deserving community-based charities.  
These points conclude my remarks and I stand ready to serve your needs as I also communicate the thanks for our volunteers and community overall to you for the opportunity to appear today. 

	MR. STEARNS.  Thank you.  And Mr. Johnstone.
	MR. JOHNSTONE.  Good morning, Chairman Stearns and members of the committee.  My name is William Johnstone.  I am a 40-plus year volunteer member of the Pasadena Tournament of Roses Association.  I served as president in 1996 and 1997, and I currently chair the Rose Bowl Management Committee, which is a committee consisting of members of the Pac-10 Conference, the Big Ten Conference, and the Tournament of Roses Association.  It is charged with the responsibility of managing the Rose Bowl game.  I appreciate very much being extended the privilege of appearing before this committee this morning, and after my prepared remarks, I will be happy to answer any questions that you have to the extent of my ability.
	The written statement which has been submitted to your subcommittee presents first the history of the Tournament of Roses and the Rose Bowl game.  This was not done just from the standpoint of historical interest, but rather from a perspective of explaining and emphasizing the significance of the Rose Bowl game to the purpose of the tournament in presenting to the world what we call America's New Year's celebration.  Such presentation has been going on for 116 years and this coming January 2 will be the 117th year.
	I would like to make one correction to the written statement that I submitted, if I might.  On page two I said that since 1923, 83 consecutive postseason college football games have been played in the Rose Bowl.  Considering the fact that today is December 7, Pearl Harbor Day, I focused on the fact that in 1942, in January 1942, some three weeks after the Japanese attack on Pearl Harbor, the game was shifted to Durham, North Carolina.  And although it continued to be a Rose Bowl game, it was not played in the Rose Bowl.  That game was played between Duke University and Oregon State University.
	My written statement also focuses on the reasons for and the importance of the association of our Rose Bowl game with our conference partners, the Big Ten and Pac-10.  That 58-year association has stood the test of time, and has only increased in its vitality as the years have passed.  From every measurement, whether from an attendance standpoint, television ratings, economics, television rights fees, reputation, human interest, what have you, the Rose Bowl game, matching the champions of the Pac-10 Conference and the Big Ten Conference, is an integral part of our presentation of America's New Year's celebration on or about January 1 of each year.
	Our written statement next discusses our relationship with the Bowl Championship Series, the BCS.  By way of summary, we have no direct contractual relationship with the BCS, contrary to public opinion.  We are not a BCS bowl.  We can't control the BCS nor can the BCS control the Rose Bowl.  We have our own independent broadcasting rights agreement with ABC Sports.  It establishes the time spot on January 1 or January 2, when the first occurs on Sunday at 2:00 p.m. Pacific Coast Time in Pasadena.  We impose our own limitations on commercial contents of the bowl and game.  We do not allow a title sponsor.  We establish our own visitors contract for teams appearing in our game.  We intend to continue that policy.
	Because our conference partners are members of the BCS and want their champions to be able to play for the national championship, we have accommodated them by agreeing to release a number one or two team to play in the BCS national championship game.  In return, the Rose Bowl is designated the site of the national championship game every four years.  We, of course, have the best of all worlds this coming year, as we have the national championship game and the conference champion of one of our two conferences playing in that game, and nearly a second conference champion in Penn State.  Should the underlying relationships and assumptions that we have remain the same with the BCS, we will continue to release a number one or two.  If they change without our consent, we are free to disassociate the Rose Bowl from the BCS.
	Finally, our written statement addresses the subject of college postseason football playoff system.  We believe that a playoff system with assigned teams on assigned days would adversely affect the tradition of our presentation of America's New Year's celebration, and the economic vitality it brings to Pasadena and the greater southern California area.  We could not support any system which would diminish the prestige and luster of the Rose Bowl game, or work toward elimination of playing the Big Ten and Pac-10 Conference champions on or about New Year's Day in Pasadena, California each year.  Moreover, while we will leave any discussion of the mechanics of a playoff system to others to comment on, it is very difficult for us to envision a playoff system which would not undermine our New Year's tradition.  Thank you very much.  I will be happy to answer questions.
	[The prepared statement of William Johnstone follows:]

PREPARED STATEMENT OF WILLIAM JOHNSTONE, CHAIRMAN, ROSE BOWL MANAGEMENT COMMITTEE

On behalf of the Rose Bowl Management Committee, we thank you for the invitation to testify before your Subcommittee at a hearing entitled "Determining a Champion on the Field:  A Comprehensive Review of the BCS and Postseason College Football."  Before we address the subject matter of the hearing, we feel it would be beneficial for you to know some of the history of the Rose Bowl, its current status in postseason college football, and its relationships with the Bowl Championship Series ("BCS").  

HISTORY

The Pasadena Tournament of Roses Association was founded in 1890 by citizens of the City of Pasadena, California, for the purpose of presenting a floral pageantry on New Year's Day in celebration of the beautiful weather in Southern California at that time of the year.  Its members are volunteers and currently number 935. The celebration drew instant recognition, and visitors from the colder climates in our country journeyed west in increasing numbers to experience the mild weather and participate in the celebration.  In fact, because of the influx of citizens from the State of Indiana, Pasadena was often referred to as the "Indiana Colony."  
Partly to compliment the floral pageantry and partly to secure financial support for the parade and other activities, the concept of sponsoring a sporting event developed.  In 1902, the first postseason college football game in the United States was played at Tournament Park in Pasadena, between the University of Michigan and Stanford University.  Subsequent to that game, and partly because of the thrashing of the West Coast representative (49 - 0), other sporting events, such as ostrich races and chariot races, were held in lieu of a football game.  In 1916, postseason college football games were once again initiated.  In the early 1920's a bowl was constructed in Pasadena, and in 1923 the now famous Rose Bowl hosted its first game, pitting the University of Southern California against Penn State.  Since that time 83 consecutive postseason college football games have been played in the Rose Bowl.  The forthcoming game, to be played on January 4, 2006, between the No. 1 and No. 2 ranked BCS teams, for the BCS National Championship, will be the 92nd Rose Bowl Game.  
Until 1946, the Pasadena Tournament of Roses Association selected the participants, which consisted of teams throughout the United States playing a Pacific coast football champion.  
In 1947, a partnership was entered into among the Pasadena Tournament of Roses Association, the Pac-10 Conference, and the Big Ten Conference for hosting the champion of those two Conferences on New Year's Day at the Rose Bowl.  Since then, the champions of the Pac-10 and Big Ten Conferences have played in 56 Rose Bowl Games.  
Prior to this partnership, the Rose Bowl was never sold out.  From 1947 to the present the Rose Bowl has been a contractual sell out every year. 
The Rose Bowl is unique in many respects.  It is the oldest college football postseason Bowl game in the country.  It is also the largest Bowl, with a current attendance approximating 93,000 fans, and, prior to accommodation of the Americans for Disability Act and incorporation of theatre-type seating in a portion of the Bowl in 1999, its seating capacity (and attendance) exceeded 100,000.  
The Rose Bowl is also unique in its partnership with the Pac-10 and Big Ten Conferences.  No other Bowl has such an arrangement.  Since establishment of such partnership, the management of the Game has been undertaken by the Rose Bowl Management Committee consisting of representatives from the three Partners.  Because of this partnership arrangement, the Bowl is a contractual sell out every year.  Also because of this arrangement, the Rose Bowl Management Committee is not structured to sell tickets to the public.
The alliance of the Tournament of Roses, the Big Ten Conference and the Pac-10 Conference did not occur by happenstance.  The Pac-10 Conference is, of course, in geographic proximity to the Rose Bowl, hence a natural partner.  Geography also plays a roll in the Big Ten Conference partnership in the Rose Bowl. There is a strong heritage in Southern California tied to the Midwest.  From statistics we have been shown through the years, there are more alumni from Big Ten schools located in the Southern California area than in any other location in the United States.  Through the 58 years of our contractual arrangement with the Big Ten, Midwesterners have shown themselves willing to travel to Pasadena to participate in what we refer to as "America's New Year Celebration."  Our grandstands are always full, our matchings are always strong, and our television ratings consistently either the highest or among the highest in the country.  As a result of all of the above, the Rose Bowl commands the highest broadcasting rights fees of any college football game.

RELATIONSHIP OF ROSE BOWL WITH THE BCS

The Rose Bowl Management Committee has no contractual relationship with the BCS.  Contrary to popular opinion, the Rose Bowl Game is not a BCS Bowl.  The BCS has no power to control the Rose Bowl Game or the Rose Bowl Management Committee.  Conversely, the Rose Bowl Management Committee has no power to control the BCS, the BCS Conferences, or the organization and structure of the BCS.  The Rose Bowl Management Committee has its own broadcasting rights agreement with ABC Sports, separate from the BCS.  The Rose Bowl Management Committee believes it is important, and places great value on its efforts, to limit the amount of commercialization permitted in connection with the Rose Bowl Game, and, when played, the BCS National Championship Game.  In that regard, the Rose Bowl Management Committee will not allow a title sponsor of the Rose Bowl Game. Distribution of net revenue from each Rose Bowl Game is in accordance with the existing Rose Bowl Agreement (between the Pac-10 and Big Ten Conferences and the Tournament of Roses Association).
	The Big Ten Conference and the Pac-10 Conference both are members of the BCS, and, as an accommodation to our Conference Partners who are interested in participating in a plan allowing their champion to play for the National Championship, the Tournament of Roses has entered into a relationship with the BCS, which permits a Big Ten and/or Pac-10 Champion to be released from the Rose Bowl to play in the BCS National Championship Game.  In return, the Rose Bowl is designated as the site of the National Championship Game every four years.  This relationship has existed since 1998.  Assuming the underlying relationships and assumptions of the current structure, rules and policies of the BCS remain substantially the same, the Rose Bowl will continue to release a Pac-10 and/or Big Ten Conference champion to play in a BCS National Championship Game if rated one and/or two in the BCS ranking system at the end of each season.  In addition to the regular Rose Bowl Games, the Rose Bowl will continue to host the National Championship Game between the No. 1 and No. 2 ranked teams at the end of each season, once every four year cycle.  
If the underlying relationship and assumptions regarding our affiliation with the BCS change without the approval of the Rose Bowl Management Committee, the Rose Bowl Management Committee reserves the right to disassociate the Rose Bowl Game from the BCS and to decline to host the BCS National Championship Game. 
 
POSTSEASON COLLEGE BOWL GAMES VERSUS A PLAYOFF SYSTEM

We have read the letter proposed to be offered into this Subcommittee's records by the Football Bowl Association.  We concur wholeheartedly in the comments made therein.  We believe a playoff system with assigned teams would undermine the essence of the Rose Bowl and its business relationships.  We believe that any regular change to the Big Ten and Pac-10 Champions participating in the Rose Bowl Game will adversely affect the 117 years of the tradition of the Pasadena Tournament of Roses Association, both in our presenting America's New Year Celebration and in the economic vitality that it brings to the City of Pasadena and the greater Southern California area.  We would not support any system that would diminish the prestige and the luster of the Rose Bowl Game or work toward elimination of our playing the Conference champions of the Pac-10 and Big Ten on or about New Year's Day in Pasadena, California, each year. 
We leave to others the opportunity to comment upon the subject of the mechanics of a playoff system.  Suffice it to say that in our view, we cannot envision a  playoff system that will not undermine our New Year's tradition.  
Attached to the original copy of this letter is a brochure entitled "A Visitor's Guide to America's New Year Celebration" describing the events and activities that surround the forthcoming BCS National Championship Game.  We are dedicated to preserve the tradition of the celebration.
Thank you for the opportunity to present our comments at this hearing.  We hope that each of you will be able to experience what millions of Americans have experienced, and participate in America's New Year Celebration with us in Pasadena, California.

	MR. STEARNS.  Mr. Fox.
	MR. FOX.  Thank you, Mr. Chairman.  And I guess, before I begin, Congressman Terry will be happy to handle your additional requests for tickets at the MasterCard Alamo Bowl, and bring more fans to San Antonio and Congressman Gonzalez's hometown of San Antonio.
	MR. FOX.  Chairman Stearns, Chairman Barton, and members of the subcommittee, my name is Derrick Fox and I am the chairman of the Football Bowl Association and also the president and CEO of the MasterCard Alamo Bowl in San Antonio, Texas.  I am here today representing the 28 members of the Football Bowl Association, a group that includes every postseason bowl game.  I have filed with the committee a lengthier testimony than I have time to share with you today, but I did want to make a few key points in my time before you.
	The current bowl system, for whatever flaws it may have, is more than just alive.  The slogan of the Football Bowl Association is, "where everybody wins."  And that in fact is the case.  The fans win, the student athletes win, the institutions win, and the communities win.  Any system that attracts more fans than the Super Bowl, the World Series, the NBA finals, and the NHL Stanley Cup combined can't be all bad, and that is exactly what the current bowls do.  Any system that attracts 27 percent more viewers than last year's Super Bowl must be doing something right, and that is exactly what the current bowls do.  Any system that generates tens of millions of dollars annually for local charities, and some $1.1 billion in annual local economic impact, must have value, and that is exactly what the current bowls do.  Any system that this year will provide nearly $200 million, and over the next 10 years will pay $2.2 billion to more than 100 institutions of higher education, serves a commendable and worthwhile purpose, and that is exactly what the current bowls do.  Any system that allows student athletes at 56 institutions to enjoy and relive what might be one of the highlights of their lives, deserves to be preserved, and that is exactly what the current bowls do.
	Every year at this time, some newspaper columnists, some talk radio hosts, complain about the need for a national championship game and the need to create a playoff system that ostensibly would produce a national championship game every year.  My friends from the Rose and Fiesta Bowls have talked about the BCS already, but let me talk about what would happen if the most commonly discussed format, the playoff system, using the existing bowls, was put into effect.  The short answer is that the current bowl system, which serves so many different communities and interests so well, would collapse.  Consider the following: neither fans nor institutions would travel to the bowl game sites on a vacation schedule the way they do today.  The festive atmosphere that exists in 24 communities around this Nation in 28 bowl games would no longer exist.  A 16 team playoff with 15 games would eliminate nearly half the existing bowls.  Who is going to tell the MasterCard Alamo or the folks in San Antonio, Texas, or any of the other 24 communities, they may no longer be in business?
	Because of the nature of the playoff system, the contest replacing the bowls would gravitate to the campuses of the schools playing.  What happens to those bowl games which do not make the cut?  Who replaces the funds that go to local charities that benefit from the local game?  What replaces the economic activity at the game site?  Who replaces the contributions that would go to the institutions which do not play?  Do you think that by including 16 teams or eight teams or four teams or two teams, in any playoff structure, that you are going to avoid the question of who gets in?  And who will make that decision?
	Let me end today, Mr. Chairman, with a note about College Park, Maryland, the home of the University of Maryland Terrapins, and something that took place just 10 days ago.  Maryland and NC State each had a five and five record when they met on November 26.  There was an intense interest in College Park and in Raleigh.  As a matter of fact, attendance was up 15,000 over the prior home game.  Why?  The winner of that game would become bowl eligible.  NC State won the game and is going to the Meineke Car Care Bowl on December 31.  Establish a playoff system and the Wolf Pack would be sitting at home on December 31.  The question boils down to this: Who benefits by such a system?
	Mr. Chairman, no system is perfect.  The bowls are not perfect and the Bowl Championship Series is not perfect.  But certainly the concept of a Division I-A playoff is so rife with dangers for a system that has served collegiate athletics well for nearly 100 years.  It is the system that works, which has and continues to benefit so many, and one that ought not be under attack.  Thank you for the opportunity to be here.
	[The prepared statement of Derrick Fox follows:]

PREPARED STATEMENT OF DERRICK FOX, CHAIRMAN, FOOTBALL BOWL ASSOCIATION, PRESIDENT AND CHIEF EXECUTIVE OFFICER, ALAMO BOWL

	Mr. Chairman, members of the Subcommittee, and Chairman Barton, my name is Derrick Fox and I am the Chairman of the Football Bowl Association and also President and Chief Executive Officer of the MasterCard Alamo Bowl in San Antonio, Texas.  I am here today representing the twenty-eight members of the Football Bowl Association, a group that includes every post-season Bowl game from the members of the Bowl Championship Series (BCS) to the smallest of the post-season events.  They range in age from the Rose Bowl, which has been in existence for 92 years, to the three-year old Fort Worth Bowl.
	Our association has been in existence for nearly a quarter century and we have grown as the numbers of Bowls has grown.  
	Your purpose in holding this hearing is to examine the possibilities and potential of a post-season college football playoff.  My purpose in appearing before you today is to tell you that the current Bowl system, for whatever flaws it may have, is more than just alive and kicking. The slogan of the Football Bowl Association is "Where Everybody Wins."
	It is a system which benefits - in its current form - more than five thousand student-athletes, 11,000 band members, between 50,000 and 100,000 performers and millions of fans and community members.  It is a system that attracts more fans than the Super Bowl, World Series, NBA Finals and NHL Stanley - combined.  We did it last year and we will do it again - and probably better it - this year.  To create a formalized post-season college football playoff, whether of 16 teams and 15 games or eight teams and seven games or even four teams and three games is to risk the destruction of the current system.
	If you don't believe the current Bowl Game system works, let me point to a specific circumstance right here in Washington (and in Raleigh, North Carolina) ten days ago.  The University of Maryland and North Carolina State were playing in Raleigh on November 26.  Each school had a 5-5 record.  The winner of the Maryland-N.C. State game would go to a Bowl; the loser would go home.  Think there wasn't interest in that game?  What would have been the importance of it without a Bowl Game invitation on the line?  Think of the impact on that game and on those fans if there were no Bowl to which the winner might be invited and then think of the result of creating a post-season playoff.
	Mr. Chairman and members of the Subcommittee, let me describe to you first the current status of the Bowls and what they mean to the communities and schools and then what would happen with the advent of a post-season college football playoff.

CURRENT POST-SEASON STRUCTURE
	A total of twenty-eight post-season Bowl Games are played in twenty-four communities across the United States during the months of December and January.  Four cities will host two games.1  In the past year, these 28 games attracted just under1.5 million fans, an average of 53,286, or 90% of capacity.  Eleven of the games drew more than 100% capacity.  And to those who say there is an overabundance of games, we note that average attendance went up last year.  In fact, for games that have been in existence for at least six years, attendance has increased by 6.5% over that period.  And of those games that have been in existence for six years, they sold 98.5% of their capacity.
	The opponents of the current Bowl Game system who complain about too many games on television don't point to the fact that 109 million households watched games last year, 27% more than watched last year's Super Bowl.  It's obvious that people want to watch the games.

Benefits to the Communities
	What does it mean to the 24 (or 25) communities where the games are held?  For one thing, since virtually all the post-season Bowl Games are put on by charitable groups and since up to one-quarter of the proceeds from the game are dedicated to the community, local charities receive tens of millions of dollars every year.
	Excluding the television and print exposure that these communities get, it has been estimated that the Bowl games generate $1.1 billion in annual economic impact.  Fans make the Bowl experience a holiday experience, spending up to a week in the community, supporting post-Christmas business in hotels, restaurants, and visitor attractions.  And this doesn't even take into account events such as the Tournament of Roses Parade or other events, centered around the game itself.
	For example, the estimated impact of Bowl Games ranged from nearly a quarter billion dollars from last year's Rose Bowl to $4 million in Boise for the MPC Computer Bowl.  
	Moreover, the title sponsor or presenting sponsor of a Bowl Game frequently is a commercial institution headquarted in the host city, whose integration into the community - and vice versa - is enhanced by the game itself.

Benefits to the Institutions
	This year, 56 institutions will participate in Bowl Games.  That's 48% of Division 1-A programs.  Some of the opponents of the current system have complained that this is too many, but who is to make that judgment?  What is wrong with rewarding winning teams with a post-season trip for the players and fans?   Perhaps Auburn Head Coach Tommy Tuberville said it best in August, 2003: "I like the bowls because it rewards a lot of teams in college football...  I'm totally against a playoff."
	(In fact, this 48% number should be compared to the teams that make the tournaments in men's and women's basketball - 20% -- and those that make the Division I-AA football playoffs - 13%.)
	But the raw numbers of participants do not reveal the whole story.  In the 2004-05 Bowl Game season, $187.5 million was paid out to the participating institutions, many of whom, under conference rules, shared that payout with other schools.  In other words, schools that don't even qualify for the Bowls have a stake in Bowl Game revenue.  In fact, more than 100 institutions shared in the Bowl Game payouts this past year.  These team payouts generally are used to pay for scholarships for athletes in sports programs that are without broad marketplace support (i.e., "non-revenue sports").  Moreover, it's expected that the payouts will increase to $193 million this year and, over the next ten years, it's estimated that the Bowl Game payouts to institutions will total $2.2 billion.
	Intangible benefits also flow to the institutions.  Bowl Game appearances generate contributions to the institution and even increases in applications.  From the Athletics Department standpoint, it can lead to additional season ticket sales, licensing income, and media exposure and contracts.

Benefits to the Fans and Players
	Fans that travel to the Bowl Games enjoy the spectacle of college football, often combined with a late-year vacation, whether it's in Florida, Texas, California or any of the other ten states where Bowl Games are played.
	But it's not just those college football fans who revel in the Bowl Game experience.  This past season, in addition to the 5,600 student-athletes, some 11,000 band members, and 1,100 cheerleaders, up to 100,000 halftime performers, plus alumni and administrators and all those in the host communities took part.
	Playoff proponents argue that the only Bowl Game that matters each year is the BCS national championship and that no other Bowl Game matters.  Such statements simply are not true.  Student-athletes and coaches who are in any of the Bowl Games treat the experience as one of the most important of their careers.  Winning a Bowl Game is a lifelong memory for players and coaches - as well as the fans - and it is a particularly meaningful experience for the young men who play college football.  As Tommy West, the head coach at Memphis said so succinctly:  

	"To see our players and fans after the [New Orleans Bowl last year] ... well, you 
	can't take that away.  There's nothing wrong with 28 teams being happy at the end 
	of the year."

	Likewise, anyone who criticizes the current Bowl Game structure should note the following comment from The Tampa Tribune this past January 1, before the Wisconsin-Georgia Outback Bowl:

"Maybe no one outside of Wisconsin and Georgia much cares who wins this game, but so what?  A lot of people came to town, soaked up some sun, ate some good food, had a ball.  At the end of it all, they play a football game and somebody wins.  Actually everybody wins.  Imagine that."

A PLAYOFF WOULD CAUSE MORE HARM THAN GOOD
	The uniqueness of what the current system of Bowl Games brings to college football would be lost by the institution of a playoff system.  There are three basic approaches that have been suggested for a playoff: (a) a Division 1-A Playoff Tournament; (b) a Division 1-A Playoff after the Bowls; and (c) a Division 1-A Playoff using the Bowls.  No matter what system you chose, they are all flawed and the net result would be that the existing Bowl Game structure would simply disappear, along with the benefits, for all but a few teams.

Division 1-A Playoff Tournament
	Why not replace the current Bowl Game structure with a Division 1-A Tournament similar to basketball?  Sixty-four teams - probably a number with losing records - would be more than the 56 teams which play currently in the Bowls.  Such a proposal ignores the fact that a football team can play once a week, while basketball teams in the NCAA Tournament play twice a week, wrapping up the Tournament in three weeks of March Madness.  The comparable size football tournament would be December-January-February Insanity.
	More realistically, why not a 16 team playoff?  By definition, you would cut out nearly half the game sites.  Who is going to make the determination that my Alamo Bowl in San Antonio, in existence for decades, serving the local community and the college athletics community, can no longer be in business?  
	And if you think you have issues now with teams that are not playing for the national championship, multiply that by the fact that this year there are 19 teams with nine victories or more.  Which three 9-2 teams - teams which won 82% of their games - are you going to eliminate from any post-season play?
	Games would be played on campus, as fans would not travel in necessary numbers to multiple locations.  Teams would treat it like a typical road game, flying in the day before, instead of a week prior.
	The regular season in college football - the most important regular season of any college sport - would be undermined.  A loss to an underdog or an early season loss to a rival would simply result in a lower seeding in the tournament.  A team could afford to lose a couple of games and still win the national championship (as long as it made the playoffs), because like college basketball, the real season would be the tournament.  Everything prior is just "positioning"; just get to the tournament and run off three or four victories and you are the national champion.
	In today's college regular season, every game is important if you aspire to the national title.  Games in September can determine whether you have a shot.  It intensifies every Saturday during the regular season, affecting everything from ticket sales to television revenue for these games.  As one observer put it, "Division 1-A already has a playoff; it's called the regular season."
	College administrators also point out that a Division 1-A playoff replacing the Bowl Games would mean more games creating more classes missed, more pressure on the players, and more commercialism in college football.
	It's no wonder that the vast majority of college presidents, directors of athletics and coaches do not favor a playoff.

Division 1-A Playoff After the Bowls
	A playoff after the Bowl Games is merely a prelude to the end of the current system, where all of the focus will be on those games.  And if a four-team/three-game playoff is good, why wouldn't an eight-team or 16-team playoff be even better?  How will the teams be picked?  Who will be left out?  Suppose there are three undefeated teams and one with a 9-2 record; who is responsible for creating the matchups?  Finally, if you had two undefeated teams going into the playoffs - as you had in 2002-03 (Miami and Ohio State) and this year (Southern Cal and Texas), why should those teams have to play an extra game to meet one another?

Division 1-A Playoff Using the Bowls
	There are those who attempt to strike a middle ground by saying they would create a Division 1-A Playoff, but would continue to use the existing Bowl Game structure.  These people are living in a fantasy world.  A playoff attempting to use the existing Bowl Game structure is doomed to failure and in itself dooms the current system, which has served collegiate athletics so well.  
	Dr. Myles Brand, the President of the NCAA and a former university president at Oregon, takes this view:

"If you have a playoff, you threaten [the smaller bowls] as well as some of the mid-level bowls...[T]he bowl system gives a much wider ranger of opportunities for more student-athletes to be involved, more alumni and fans to celebrate.  Not everyone has to raise their finger No. 1 to be part of a winning season and football right now."

	Consider the following with a proposed playoff using the existing Bowl structure:
* How - and who? - will determine which Bowl Games will be the survivors to be made part of a playoff structure?  
* What happens to those Bowl Games who do not make the "cut"?  Who replaces the contributions that would go to the institutions which do not play?  Who replaces the funds that go to local charities that benefit from the local game?  What replaces the economic activity at the game site?
	Let's assume that a 16-team, 15-game playoff structure is created.  What is likely to happen to the current status:
* First, nearly half the existing Bowls - the remaining 13 - will immediately suffer.  It is comparable to the appeal of basketball's National Invitation Tournament, which limped along in various incarnations after the NCAA Tournament expanded, until it was finally bought by the NCAA.
* The remaining Bowls - those that are part of that playoff structure - themselves will change in nature.  Except for one, they will all simply become a prelude to the championship game.  The aura of Bowl week will no longer exist; 
* Host communities, faced with the loss of the Bowl Game ambience, will no longer turn out in support of the Bowl Game effort; 
* Fans won't travel the way they do today.  The 10,000-30,000 fans which might follow the team to a Bowl site today may wait to see if the team makes it into the championship.  They won't travel to the early games and certainly wouldn't travel three weeks in a row;  
* If they do travel to the Bowl playoff site, they won't spend the better part of a week there; rather a day or two would be the norm.  This will not be the vacation journey that it is today;
* Faced with the potential of significantly increased travel costs covering multiple weeks, the teams likely would arrive the day before a game, not spend the entire week at the Bowl site.  It's merely an away game;
* Faced with the absence of Bowl sites, such a playoff would end up relying on campus stadiums sites of one of the participants, like professional football; and. 
* Non-playoff Bowl Games, reduced to a post-season-NIT-type of existence, would simply close down.

Playoff Financial Considerations
	Everyone points to the "boxcar" numbers that a playoff would produce, ignoring the fact that the existing Bowl Game structure will produce nearly $200 million this year for the institutions and projects $2.2 billion over the next decade.  A proposal made a few years ago offered $2.5 billion over a ten year period to take over the BCS Bowls and add a three-game playoff after the Bowls.  The company that made the offer went bankrupt recently leaving its international business partners in the lurch.  So much for boxcar dollars!

CONCLUSION
	No system is perfect.  The Bowls are not perfect and the Bowl Championship Series is not perfect.  But certainly, the concept of a playoff - as attractive as it may sound from the "experts" on Sports Talk radio this time of year - is rife with dangers for a system that has served collegiate athletics pretty well for the past nearly one hundred years.  
	It's easy to express support for a playoff concept which has never been tested; all of your assumptions and theories work out perfectly.  On the other hand, however, the Bowls have already withstood the test of time and have not been found wanting.
	With the current structure of the Bowl Games, you protect the importance of the college football regular season and, as importantly, you have twenty-four communities committed to providing not just the financial support, but a quality experience for the thousands of players and fans who attend each Bowl Game.
	The current Bowl Game system does reward over 5600 student-athletes, creates over $1 billion in combined economic impact to the host sites, donates nearly $200 million annually back to higher education, and gives millions more to charitable endeavors in their own communities.
	It is a system that works well, benefits so many, and ought not to be under attack.
	Thank you for the opportunity to be here today.


	
	MR. STEARNS.  I thank the witnesses, and I will start off with my questions.  Let me first of all ask unanimous consent to put into the record three letters, one that has been addressed to me from the Chick-Fil-A Peach Bowl, and the other to Ms. Bono from USC, and a third to Chairman Barton.  With unanimous consent, so order and I will put those in.
	[The information follows:]

	
	MR. STEARNS.  Let me just say, as preface to my questions, this subcommittee has the jurisdiction over sports.  As Chairman Barton had mentioned, we have done a lot of substantive hearings, both in dealing with data security and spyware, privacy.  We have had, I think, seven hearings on it, dealing with consumer protection and copyright protection.  We also did a hearing on Homeland Security for those big football games where you have the possibility of planes flying overhead.  We have obviously done hearings on steroids, which I think we have made some progress with baseball and football, dealing with boxing and of course sports, women's sports and Title IX.  So we have huge jurisdiction.  So in this case, when there is a lot of money involved, it is very perplexing how these bowl arrangements are made.  In fairness, we think it is important, so we might adopt the Star Trek motto, to boldly go where no man has gone before, and that is why we are here today.  To discuss something that is a little arcane, sort of a mist of mysticism and arcaneness in this process, and we are trying to figure it out.
	But as a layman, if I look at this and I see, well, there are playoffs for baseball and basketball.  So, Mr. Weiberg, this is your question.  We are here because you say that you don't want to have a playoff because it dilutes revenues and the students' academics are affected.  But in basketball, we have an NCAA playoff and then we also have it with baseball, and I am sure other sports.  So the big question is, if that is such a problem, why is that we can have it in these sports, playoffs, so that we actually know who is the ultimate champion?
	MR. WEIBERG.  Sure.  Well, the sport of football, I think, is unique in a number of ways.  It is not a sport that lends itself well to a tournament structure.  Sports like basketball, baseball, can play games on consecutive days in some cases, or with only one day off.  In the case of the NCAA Men's Basketball Tournament, it is possible to conduct a 64 team event over three weeks.  Football would require a good deal more time for such a structure.
	MR. STEARNS.  Mr. Weiberg, doesn't Division I-AA football have a playoff?
	MR. WEIBERG.  We do.
	MR. STEARNS.  So wouldn't that hurt your argument in saying that--
	MR. WEIBERG.  But again, I tried to mention in my statement that in the case of I-AA football, there are some substantial differences from I-A football.
	MR. STEARNS.  And now you were giving me the difference between baseball and basketball, but now you are giving me the difference between within football and football.
	MR. WEIBERG.  That is true.
	MR. STEARNS.  Which makes it a little difficult to understand, if you are talking about Division I-AA has a playoff, yet you seem to say that--
	MR. WEIBERG.  But certainly, Congressman, it is possible to have a playoff.
	MR. STEARNS.  Right.
	MR. WEIBERG.  So don't misunderstand me.
	MR. STEARNS.  Okay.
	MR. WEIBERG.  It definitely is possible--
	MR. STEARNS.  Yes.
	MR. WEIBERG.  -- to do it at the I-A level as well.  We have chosen not to go down that path because of the value of our regular season.  Because in I-A football, to move fans and teams from playoff site to playoff site, unless it is going to be conducted on campus, which then has a detrimental effect on the--
	MR. STEARNS.  But they do it in AA football with no problems.
	MR. WEIBERG.  They do with much smaller, much smaller attendance, a much different structure.
	MR. STEARNS.  Let me ask this question of Mr. Delany.  There has been some question that the players' welfare is one of your concerns as an issue.  Why did you support the addition of the 12th game being added for the 2006 regular season, if we are concerned about the players' welfare and dealing with academics?
	MR. DELANY.  Well, the first thing is the 12th game, after considerable discussion with our coaches, our players, and other people on campus, it was determined that if they had their druthers, they would like to get rid of spring practice, since they feel like they practice too much and don't play enough games.  And so we have a biweek.  The question is, do you plan the biweek or do you sit and not plan a biweek?  And after talking to the players, there was a sense that they would rather play than practice.
	MR. STEARNS.  Okay.  Let me ask Dr. Khayat.  Do you support the idea of an additional 12th game being added to the 2006 regular season?
	MR. KHAYAT.  I did not support it when we had those conversations.
	MR. STEARNS.  And so here we have them arguing that they need it, yet, as a college president, you would say it must affect the academics of the students, wouldn't you say?
	MR. KHAYAT.  I think that any expansion of player activity, whether it is practice or game responsibilities, will impact the academic programs of those students.  I understood the reasoning for the 12th game.  As I mentioned to you in my testimony, athletics is an auxiliary enterprise at a university and has to be self-sustaining financially.  And with the number of nonrevenue sports, and with the Title IX sports that are so meaningful to our universities, it is necessary that football, in our case, generate enough revenue to support an entire athletics budget.
	MR. STEARNS.  So it is a combination of academics and revenue?
	MR. KHAYAT.  It is.
	MR. STEARNS.  Your idea.
	MR. KHAYAT.  Much like your work, we are constantly trying to balance this complex, comprehensive organization.
	MR. STEARNS.  Yes.  I don't have the time, really, to argue the revenue side, but I can understand the student academics.  Mr. Fox, what is your biggest fear of what I mentioned to Mr. Weiberg, of a playoff like the NCAA does for basketball and baseball?  What is your biggest fear?
	MR. FOX.  Well, if you went to the playoffs, the bowl system as we have it now would no longer exist.  You are talking about going to a one-day, much like a road game now.  Teams would come in, at best, on a one-day turnaround, or more than likely they would go to the home campuses of the teams participating in those games, which not only changes the dynamic and the model of the bowl system we currently are under, but certainly change the competitive aspect from a coaches perspective as well, and probably some other revenue opportunities.
	MR. STEARNS.  My time has expired.  Mr. Gonzalez.
	MR. GONZALEZ.  Thank you very much, Mr. Chairman.  And first of all, to commend Derrick Fox for the great work that you do at the Alamo Bowl.  It is just a great success.  And I know that I attend along with members of the family.  We all look forward to it and it is going to be a great one this year.
	The first observation I think that we need to make is, BCS is really a reaction to what has been going on in collegiate sports.  It is totally different, and I know that Chairman Barton and I remember the good old days of Kern Tibbs and Humble Oil, remember, in the Southwest Conference.  Well, we don't even have a Southwest Conference; and the merging of these conferences.  And remember the old days, Chairman, when students could actually get tickets to go to the game.  Instead, you find Chairman Barton and Charlie Gonzalez in those seats today.  You know, things have really changed and that is the reality, and there is a huge financial stake for these universities.  And some of it is not all bad, because I believe that that money does go for other athletic opportunities for many more athletes that, when we went to college, were not available for them.  Title IX is a real great example of it.  You know, how do you finance all of that?  And so there is much more going on in these particular bowl games.
	But the real question, I guess, comes down to, what would be different?  Right now we are talking about playoffs.  We are really concerned about trying to find the best teams at the end of this whole process, and the only way you could do that in a perfect world is to have these playoffs.  Is there any argument today, and I know that we went over the formula and such, that the rankings would be any different if we reverted to the old way?  I don't think that there would be.  I think the rankings are the rankings regardless of whether we are using the computer or we go the old way and we have polls and have everybody else.  What would be different is the pairings and where we have these individual teams and whether we would have what is a championship game today.  Now, am I wrong in that assumption?  And I will go--and we will go down the line.
	MR. WEIBERG.  Well, no, I think that is correct.  You know, if we were to move back to the old bowl structure, in which conferences would make their arrangements directly with individual bowl games, the match-up that we have in this year's Rose Bowl, Texas versus Southern California, would not occur.  Most likely, my conference, the Big 12, would have entered into an agreement with a bowl like the Orange Bowl or Fiesta Bowl, or perhaps the Cotton Bowl, and our champion would be designated to play theirs.  So I think that that is the improvement associated with the current structure, that it gives us the opportunity to put different teams from different conferences together in a one-two game, but also to create other match-ups that probably wouldn't have occurred in the old bowl structure.
	MR. DELANY.  I will just comment.  Three times in the last 10 years, the Big Ten has produced teams that have been ranked either one or two.  In 1994, Nebraska was ranked one and Penn State was ranked two.  Now, if there had been the computers at that time, Penn State would have looked pretty good on the computers, but not too good in the coaches poll and the writers poll.  We never got a chance to play Nebraska, in the interest of, you know, a little smack talk in anticipation of the polls in San Antonio.  You know, we would love the opportunity to play Nebraska, even though it is not Penn State versus Nebraska.  In 1997, again, Michigan and Nebraska.  No computers.  The coaches voted one group.  Michigan won.  And the other group, Nebraska won.  They never had a chance to play.  That is one of the reasons we got involved with the BCS.  We thought those games should be played.
	Now there was a third-ranked team in both of those years, and I am sure they would have argued at that time that they should have the right to play.  But the fact of it is, as we took a step away from the bowl system towards a one-two game, in order to avoid an eight team or a 16 team or a 32 team playoff, because to some extent the public looks for the one-two.  That is what America wants to know.  Who is number one?  We prefer to have that played out, for the most part, during the regular season.
	We know there is some controversy around three and four and one and two, but I think what we have today is a step forward.  But I think, as Dr. Khayat said and Bill Johnstone from the Rose Bowl, if the choices between a one-two game in the BCS or a series of NFL-styled tiered playoffs, we would prefer to go back where we were, and I think that has been the misunderstanding.  The media and others have not been willing to accept the fact that we took a step forward, but we are not too interested in taking the next step.  Thank you.
	MR. KHAYAT.  The only consistent theme in this conversation today has been the desire to identify a clear national champion, and to gain consensus on it among the public.  Given our experiences in virtually every other athletics activity, that is unlikely to happen.  This year we have these two undefeated wonderful football teams playing in the Rose Bowl, and perhaps there will be less disagreement and conversation about it.  But you can bet that the people at Auburn last year and the people at USC the year before were not satisfied, and you all had made comments about that.  So it seems to me a little futile to spend a lot of energy trying to gain some sort of national consensus about who the football champion is.  As a matter of fact, I am not sure it is not a good idea to have two or three national champions.  I am serious, so that the kids on those teams can be members of national championship teams.  If memory serves me correctly, in 1959, Syracuse, LSU, and my university were all three selected as national champions by different selection groups.  That was not so bad, and we weren't fussing about it.  We didn't think we were better than Syracuse.  We probably thought we were better than LSU, but we didn't know about Syracuse.  But I don't think there is anything wrong with that.  And the other presidents, when we talked about this in the BCS oversight meeting, the continuing comment was that BCS may fall of its own weight.  It just may collapse, because we cannot accommodate the competing interests.  Each of us who served on that committee received, I wouldn't say hundreds, but multiple detailed e-mails of the absolute perfect solution to the BCS designation.  So I would be very comfortable, and our presidents would be comfortable, I think, if we decided we can't do this.  Let us go back to the pre-BCS, but not a playoff.
	MR. GONZALEZ.  Mr. Junker?
	MR. JUNKER.  Sir, I would briefly comment to Mr. Fox's earlier comment, and although I never played the game like Dr. Khayat, I have observed for 35 years, and been very close and observed players who have.  And should we move toward a playoff system, Mr. Fox mentioned it briefly, but it is quite evident that the reward aspect of what a bowl game means to approximately 100 football players will be greatly damaged.  And it is my feeling, very strongly, in observing the bowl game experience, it is something unique in sports, it is something that serves as a lifetime memory, and it is something that is well deserved by the young men who break their bones and spill their blood for the revenue necessary to fulfill all the needs that financially we have to, to fulfill obligations for Title IX, Olympic sports, and other things.  And there is no question.  As we add events, there will be a propensity to make it an abbreviated experience and simply an experience of what happens between the white lines on game day rather than an opportunity for young men to enjoy something very special in their lives.  Thank you.
	MR. GONZALEZ.  Mr. Johnstone?
	MR. JOHNSTONE.  Congressman Gonzalez, addressing your first observation, I am sorry.  I did not bring any tickets to the Rose Bowl game for you, but perhaps we could talk after the hearing.
	MR. GONZALEZ.  I will meet you at Bullfeathers at 5:00.
	CHAIRMAN BARTON.  You got to be careful about an illegal gratuity, Congressman.
	MR. GONZALEZ.  Oh please.
	CHAIRMAN BARTON.  He has got to bring tickets for me, too, if he brings them for you.
	MR. JOHNSTONE.  The Rose Bowl was very comfortable with the situation before the BCS.  And we as the Tournament of Roses were not pushing for such a system.  And as I indicated in my remarks, we accommodated the wishes of our respective conferences.  As we have gotten used to the BCS system, we find that, as a playoff system, it comes about as close as it can to permitting the existing bowl systems to continue as they are.  In our situation, we have played up until this year three of four years on a regular Pac-10/Big Ten championship.
	MR. STEARNS.  The gentleman's time has expired.  If you could just make your comment, sum it up and then, Mr. Fox, sum it up quickly and we can move on.
	MR. JOHNSTONE.  I have said enough, then.
	MR. STEARNS.  Okay.  Mr. Fox?
	MR. FOX.  I will make mine very brief.  But I think one of the things that is important, and I applaud the BCS for allowing a mechanism within the current bowl structure to crown a one versus two game, which they certainly have done and done very well this year and I applaud them for that.  I also keep in mind that there are 27 other bowl games that will have a chance, and 27 other teams that will end the year on a win, and they too will be crowned champions in their own honor, and that is not such a bad thing, as Dr. Khayat mentioned earlier.
	MR. STEARNS.  The gentleman's time has expired.  Mr. Barton, the chairman of the full committee.
	CHAIRMAN BARTON.  Well, thank you, Mr. Chairman.  And again, I want to thank all our witnesses for being here.  But I guess my first question, and I am just puzzled, I want to ask my friend from the Big Ten why there are 11 teams in the Big Ten?
	MR. DELANY.  We can't count.  Just can't count.
	CHAIRMAN BARTON.  It is hard to comprehend having a Big Ten that has 11 teams.  But anyway, my college president friend from the University, I think it was the University of Mississippi, obviously an outstanding academic record, an outstanding athletic record.  What was your major at the University of Mississippi?
	MR. KHAYAT.  I majored in history.
	CHAIRMAN BARTON.  Majored in history.
	MR. KHAYAT.  Yes, sir.
	CHAIRMAN BARTON.  Off the top of your head, do you know how many football scholarship athletes at the University of Mississippi are majoring in history this year?
	MR. KHAYAT.  I don't.
	CHAIRMAN BARTON.  Do you want to make a guess?  I would guess zero.
	MR. KHAYAT.  I probably wouldn't guess about it.
	CHAIRMAN BARTON.  Yes.  I just have a feeling that your era, when there truly were scholarship athletes as the general rule rather than the exception, it has been reversed.  And so it is very difficult to have a true scholarship athlete today at a big-time college.  Not impossible, but very difficult.
	MR. KHAYAT.  May I respond to that?
	CHAIRMAN BARTON.  Sure.
	MR. KHAYAT.  Actually, it depends on the commitment that you make to the academic integrity of your programs.  The NCAA has taken steps, led by many of the people at this table, to ensure that there is some accountability in the academic area.  There is no doubt that academic quality has been eroded.  Programs like general studies, I would suggest, probably have little value.
	CHAIRMAN BARTON.  Well, I am all for college athletics and I am for big-time college athletics.  The point I am trying to make is, you are an example of the way everybody thinks it still is, and it is just not.  I mean, for a lot of good reasons it is not.  But one of the reasons that is used against the playoff system, is because of the academic aspect.  Obviously, this is why you go to college.  And I would postulate that whether you have a playoff or not have a playoff really isn't going to impact on the academic experience.  For example, and again, my friend, Mr. Weiberg from the Big 12, who is right now the coordinator for the BCS, the BCS is not affiliated directly with the NCAA.  But, if we are all about academics, why would we not set a rule that you don't go to a bowl game if your graduation rate of your seniors, for some multiple period in prior years, is either not at least 50 percent or whatever the rate is of the academic body that you are representing?  What would be wrong with that?
	MR. WEIBERG.  Well, Mr. Chairman, we are on that path, I think, to some extent.  The NCAA has adopted academic reforms that I think will indeed end up penalizing some institutions for poor academic performance of their team, in a variety of sports that will take them out of postseason play.
	CHAIRMAN BARTON.  I am not going to name names of colleges, but my friend, Mr. Gonzalez, was talking about the old Southwest Conference, which the school that I went to was a proud member of.  There was a year, and it wasn't like that long ago, one of the schools of the Southwest Conference, the old Southwest Conference, had no football scholarship athlete who graduated.
	MR. WEIBERG.  I think those days have--
	CHAIRMAN BARTON.  None.
	MR. WEIBERG.  --changed dramatically.  I actually look at it--
	CHAIRMAN BARTON.  None.
	MR. WEIBERG.  --in the opposite way, as you have expressed it.  I think that there is a much better path of academic performance.
	CHAIRMAN BARTON.  My point is that, you know, it just boggles my mind that in every other NCAA sport, every other college sport, they have a playoff.  In all high school sports in most States--I just asked my friend from Nebraska, do they have a playoff system for high school sports in Nebraska?  And he says they do.  They do in Texas, you know.  But for some reason, in NCAA Division I-A football, a playoff is a bad idea, and the testimony here today, you fine gentlemen have all gone around and around.  We want to get as close to a playoff as we can without actually having a playoff.  And then we get all of the reasons we can't do a playoff, academic excellence and all of this, but doesn't it really boil down that the major bowls, my friend at the Rose Bowl, the University of Texas is going to go to, and I hope I get to--after today's hearing, still be able to purchase a ticket to go.  You know, my friend at the Fiesta Bowl, which is another of the major bowls, friends at the Alamo Bowl, where Texas A&M has gone to the Alamo Bowl in the past, and had a great experience.  Is it that you guys just don't want a playoff system because you think it is going to impinge on the money that these, the big bowls actually make?  Isn't that the real reason that we don't have a playoff system?  And I yield to Mr. Johnstone, if he wants to respond to that.
	MR. JOHNSTONE.  Not from the standpoint of the Rose Bowl, Congressman.  It isn't the matter of economics.  As a matter of fact, the BCS system that starts in 2007 with the double hosting will preserve better for Rose Bowl games in four years.  In addition, we have a fifth game, which will be a national championship game.
	CHAIRMAN BARTON.  Well, I will let my friend from the Fiesta Bowl also comment on that.
	MR. JUNKER.  Thank you, Mr. Chairman.  I would respond by saying first of all, that there is some truth that our communities do have a stake in this.  They have participated, they have volunteered.
	CHAIRMAN BARTON.  And that is a good thing.
	MR. JUNKER.  They have funded and done it for many years.
	CHAIRMAN BARTON.  That is a good thing.  The Cotton Bowl brings lots of money to Dallas and that is a good thing, not a bad thing.
	MR. JUNKER.  And we are grateful that stake is recognized.  At the same time, in the case of our bowl, it has always been our policy that the state and shape of postseason football, is really owned by those stakeholders, which is those universities and their communities that own the sport and we felt strongly that it is their job to look at how the postseason should be handled and regulated and we feel very strongly that there has been tremendous research diligence paid as to the system that we have now and a great amount of work done by colleagues of people represented here.  So it is not just the case of protectionism, by any case.  It is a case of allowing the people in the marketplace closest to the product to help make those business decisions.
	CHAIRMAN BARTON.  Well, if the NCAA would decide to impose or go to a playoff system in football, I-A, like they do the other sports, wouldn't it be possible to meld the playoff with the bowl system?
	MR. JUNKER.  It would be very difficult to foresee ways that that might operate, sir, but perhaps it would take one brighter than me to determine how that would work.
	CHAIRMAN BARTON.  Well, we have got several plans that have been presented to the committee in preparation for the hearing that would indicate it could be done, so my time has expired.
	MR. STEARNS.  Will the gentleman yield?  As I mentioned earlier, they have playoffs in the Division I-AA and the Division I-AAA football and I asked Mr. Weiberg if he is making the argument that he can't have it in Division I-A because it is so much different than baseball and basketball, why is there so much difference between the AA and the AAA?
	CHAIRMAN BARTON.  Well, the only explanation that makes sense to me is that there is so much money in some of the major bowls that they somehow don't want to participate in a playoff structure, but I would postulate that the big bowls, Rose Bowl, the Fiesta Bowl, the Sugar Bowl, the Cotton Bowl, I mean, pick your major bowl; the Orange Bowl.  You can incorporate that with some sort of a rotational system like the BCS has and make it work and use all the lower bowls, the lesser pay-out bowls as part of your entry into the playoffs.  But anyway, my time has expired.
	MR. STEARNS.  The gentleman's time has expired.  Mr. Terry.  Mr. Terry.  Oh, the gentleman who is waiting on the Democrat side is not a member of the committee and we have decided to give him an opportunity to ask questions at the end of all the questions from you folks.
	MR. TERRY.  Appreciate that.  I guess the fundamental question here is how do we eliminate or best encourage change so that what happened last year where you had three undefeated teams, that you don't have one legitimate team left out of the process and I think that is, you know, when you boil down to it, that is the ultimate question here.  What happened this year where you have the two obvious teams that everyone, most everyone was picking as the top two teams going into college football ended up that way at the end of the season, so I guess I can say this year was kind of the anomaly that everything just kind of lined up.  Is there a way, has the BCS folks discussed ways of manipulating, massaging the BCS so that if there are three or four deserving teams of the national championship who are having a shot, that you aren't, by artificial means excluding the Auburns or those and so since you are the BCS guy this year, you get a start with that answer.  And by the way, I think the other valid criticism of the BCS is that it doesn't have the Dunkle index anymore since Mr. Dunkle is sitting in the back row.  I had to throw that one out.  Go ahead and answer.
	MR. WEIBERG.  Well, I remain interested, as I said in my statement, in looking at models and ideas for continued improvement of what we have.  I think that the BCS is an improvement and I tend to agree with you that if we could find ways to address the question of whether the right two teams are playing for the championship, that it might be possible to have a broader consensus that the system works and is good for the sport.  In order to do that, it seems to me, you really have to be willing to allow teams to play more than one game in the postseason.  It is a rather simplistic notion, obviously, but I think you would really have to, at that point, look at things like one additional game and that raises other questions, of course, about then how do teams play to that one additional game, but I think the so called "plus one model" is one that deserves review and it is really not, as of yet, had a full opportunity for review.
	When we went through the process in the last round of putting together plans for negotiation of the next four-year television contract, up to that point there had not been more than two unbeaten teams at season's end that were among the top four teams in the country.  Subsequent, then, to the agreement to move forward with the package for a four-year period, we had the circumstance of last year in which we had three teams as has been pointed out.  Auburn being the third ranked of those teams that were undefeated at the top.  There were actually five unbeaten teams in that particular year, but my point is that there hasn't been a lot of in-depth or serious consideration of that model, although it has been one that has been mentioned as a possible way to make improvement.
	MR. TERRY.  Anybody else on that specific?  Just let us go down the line.
	MR. DELANY.  Thank you.
	MR. KHAYAT.  Excuse me.
	MR. DELANY.  I spent 10 years as commissioner of the Ohio Valley Conference, which is a I-AA conference that has a national football playoff, so I am not philosophically or morally opposed to a playoff.  We had a relatively meaningless regular season from the standpoint of attendance; maybe 8,000 or 6,000 people would normally come to a game.  There were no bowl opportunities.  We tried to arrange bowl opportunities between the Ohio Valley Conference and the Southern Conference and play in the Liberty Bowl Memphis.  Nobody was interested in that community in supporting that game.  There were no television entities, no sponsorship, so the only way that the I-AA people could get any interest in the postseason was to create a playoff.
	In 1979 it was four teams.  In 1982 it was eight teams.  In 1983 it was 12 teams, then it was 16 teams that were subsidized from the television perspective.  You are playing Middle Tennessee versus Delaware in Wichita Falls.  You can imagine the crowd that draws.  So you have a playoff system, because there is not community interest in a bowl system.  I think the majority of people would prefer--now, the Ivy League doesn't play.  They don't play postseason football, so they don't engage it.  I spent six years on the Men's Basketball Committee and played in it as a student athlete at North Carolina.  It started in 1939 as an eight team affair and then when I played in it, it was 24 teams in the late 1960s.  Then it moved to 32 and 48 and 53 and 64 and now 65 and there is discussion about adding another week, which include another 64 teams.
	The point of it is, is that it is an exorable, politically, an exorable result that once you start a playoff, there is always a number three team that feels left out.  If you have a four-team, you will then have a fifth team.  If you have an eight-team, you will have a ninth team.  This is played out over and over and over again.  I am sure there must be things that you do that lead to similar kinds of results.  Once it is given, it can never be taken away and it tends to grow, you know, like it tends to grow, in a way that it is not controllable.  So I think those are some of the reasons it does exist in I-AA.  It is not impossible, but we have a system that is fairly workable in view of a lot of people, especially university presidents.
	MR. KHAYAT.  We do have an academic calendar we have in classes during football season.  Many schools have examinations during December, assuming some sort of playoff might begin in December.  Many schools have examinations in early January.  If they have examinations before Christmas, school begins in January, or in our case, as a winter session.  College basketball, men's and women's is underway, well underway in January and so anywhere you put this football playoff system, it begins to conflict with the academic calendar and with the other intercollegiate sports that we play.
	The second concern is that football, as we all know, includes a certain amount of violence and physical contact and the bodies, as well as the spirits of athletes are frequently battered by December and to expand the number of games--
	MR. TERRY.  Well, getting back to the question.  The question is within the terms of the BCS, is there a way to massage the BCS so it wasn't just strictly a playoff question.  It was within the realm of the current BCS.
	MR. KHAYAT.  Well, I would refer it to the knowledgeable people about that.
	MR. TERRY.  Okay.  Because I like the plus one and that is where I was going.  Fiesta.
	MR. JUNKER.  Mr. Terry, we are honored to have your Cornhuskers win a national championship in our game in the interest of football antics.
	MR. TERRY.  And I remind every one of my Florida friends about that.
	MR. JUNKER.  Well, however, there has been much talk today about Auburn University's experience last year and we are quite sensitive to that.  They had a fine and deserving team, but I must confess my hurt feelings, that it is interesting we talk about these things and outcomes and plus ones, possibilities like that, but in our game we had the University of Utah and none of your colleagues today are represented from that great State.  They were unbeaten.  They had a fine team.  They were ranked fifth, I believe, in the final poll, an unbeaten team.  Now there is a plus one, now who should play USC?  Should it be Auburn, should it be, oh, we need another game.  We need another opportunity.
	MR. TERRY.  And was Boise State also undefeated?
	MR. JUNKER.  I believe, yes, they were.  We had a case in our team represented who, excuse me, Mr. Chairman, did happen to succeed in their game against Texas A&M.  They succeeded against North Carolina, they succeeded against the big East champion, Pittsburgh.  They had a fine season.  And I guess the point is, to Mr. Delany's comment that attempting to eliminate controversy and attempting to continue to expand the system can lead to outcomes that can be devastating to our sport.
	MR. TERRY.  Anybody else?
	MR. STEARNS.  Gentleman's time has expired.
	MR. TERRY.  Yes, it has.
	MR. STEARNS.  Okay.  Mr. Murphy.
	MR. MURPHY.  I guess I want to follow up a little bit on some of the discussions here about academics, because I can understand the concern about the academics and obviously, that is the key concern.  When students are in college, we hope their key concern is to get a degree, which they can go on to work and not just simply use it as a showcase for the NFL draft.  But I also know the schools spend a tremendous amount of effort on helping students.  I mean, I am just amazed at, for example, Penn State, where I said my money goes and my daughter, what is done to help, but I also find this incredible what happens on college campuses where the football teams really serve as an inspiration for the students on so many levels.
	I mean, it is almost an indescribable level of what happens there.  And yet, I cannot help but think that so much this year, but in past years how it has been such a frustrating disappointment for so many schools because they would find themselves with what they thought was a winning record, an undefeated record and somehow left out in the lurch.  But it brings me to this question.  I am not sure if what, and we don't expect you gentlemen to come with a consensus here, but I am not sure if any of you are proposing just leave things as they are or it is too difficult and let us not move forward, that maybe we will try something in the future, or it is certainly, I hope you understood I was reading tongue in cheek that formula before, perhaps we could recommend that colleges would all have a required class to try to understand the formula.  It would be great mathematical computer analysis, but it is--but I am wondering, are you suggesting, gentlemen, that you would--are you pushing for some reform on this?
	I understand the difficulties with the demands on the athletes' bodies, the demands on academics, and we want the students first and foremost to graduate with a helpful degree, but where should we go from here?  Where should Congress go from here?  I open it up.  Of course, I would like to hear from the head of the Big Ten.  By the way, who led the Big Ten this year?  Who--what team?
	MR. DELANY.  We had co-champions.  Excuse me.  We had co-champions.
	MR. MURPHY.  Mr. Chairman, I would like that struck from the record.  With Penn State winning all tie-breakers and therefore--
	MR. DELANY.  That is right.
	MR. MURPHY.  --our representative--	
	MR. DELANY.  I had included in my statement--
	MR. MURPHY.  But I would like it if you could comment, though.
	MR. DELANY.  I will be candid and to the point on this.  From the Big Ten's perspective, and when I talk about the Big Ten, I am talking about a super majority of presidents and chancellors, a super majority of athletic directors and football coaches.  Those are the people that I interact with, either work with or work for.  They will support what we have now.  My sense is that if it expands beyond where it is, they would prefer to go back to the traditional Rose Bowl relationship.  So on their behalf, I have to be clear and candid.  Now, are there individuals among presidents who would consider a plus one?  There are individuals, maybe an individual.  And among athletic directors there may be an individual, but the super majority of people that I am speaking for here would either support the system we have here or move back to the traditional system if there is an effort to expand to something that looks like a slippery slope to them, a plus one that would then lead to an eight game, 16 game, 12 game.  They think that would be bad for--
	CHAIRMAN BARTON.  Mr. Murphy yield?
	MR. MURPHY.  Yes, I will yield.
	CHAIRMAN BARTON.  I am puzzled that there is such intense opposition to some sort of a multi-team playoff system.  What is so slippery about that?
	MR. DELANY.  Okay, what is slippery about that?  This is an interesting sort of position that people take.  The faculty reached one conclusion based on one set of reasons.  The football coaches reach the same conclusion based on a different set of reasons.  The presidents and chancellors reach the same conclusion, but for different reasons, so it is not true that all the constituents that I work for or report to have the exact same reasons for reaching that conclusion.  For us, it is the historic 55, 57 year title, the Rose Bowl that is important.
	It is the importance of the regular season; it is the interest in the multiple opportunities for many of our teams to play the bowl system.  Ours is about the quality of our middle class.  We understand that Penn State, Michigan and Ohio State have historically vibrant programs, but the key for us, is our regular season.  In our whole approach to college football it is the health of all of our programs, and we think the overall health, the great teams will have an opportunity if there are one or two.  We understand what it must be like to be Auburn or to be Southern Cal and not to be there when you rank three.  That is a local and difficult political issue.
	But for us, and we have had third ranked teams; we have had second ranked teams.  We had Penn State, that was difficult for them not to be recognized by the polls.  We have had Michigan share it.  That wasn't so difficult because at least they shared it.  It was easier to accept.  And we have had one team have an opportunity to play in the one-two game against Miami.  It was fairly clear, much like this year, but to even take those two teams after they were fairly clear and then throw them into a playoff system; it will not stop at four teams.  The--
	CHAIRMAN BARTON.  I have taken Mr. Murphy's time, but I don't see the danger of an eight team or a 16 team playoff system.  It is presented as if that is somebody is going to catch cancer or something if you go to more than a BCS plus one, but in every sport and in every other level of competition, playoffs are assumed to be good things.  Everybody has a chance to be number one.
	MR. MURPHY.  And just, if I could reclaim the time then, Mr. Chairman, but the issue still comes down to, I think, this year perhaps the concerns are less because the way the whole system works is it works best in years you don't need it at all.  I don't know, when you have teams that are undefeated, they play very tough schedules.  It appears to be that way, but I think in other years where there are some difficulties, I think the cry will rise again in accusations that perhaps it is being done for money or for television or for some other rights like that, so I am still hoping that although this year may be something of an anomaly, that it may be--I still believe it is something that should be looked into for the good of college football and of academics.  Thank you, Mr. Chairman.
	MR. STEARNS.  Thank you, gentleman.  Ms. Blackburn is not here.  Ms. Cubin.
	MS. CUBIN.  Thank you, Mr. Chairman.  It seems to me it is really not about football, it is about money.  You know, the questions and the answers and the testimony that is where it all points to, to me.  I have four brothers and only sons and I still don't understand how men think, but--and I appreciate Mr. Junker bringing up the example of Utah.  Utah last year was one of those undefeated teams and I don't represent Utah, but Wyoming is in the Mountain West with Utah and you know, you said how it is too bad that Auburn or USC, you know, were up there but they didn't have a chance to be national champions, but what about somebody in the Mountain West?  Forget about it.  It doesn't matter how good Utah was, they weren't ever going to have--they wouldn't have a chance.  If you are from the Mountain West, you are not going to have a chance to play for the national championship.  Does anybody disagree with that?  Yeah, Mr. Delany, go ahead.
	MR. DELANY.  1984, BYU, national champion beat Michigan in the Holiday Bowl.
	MS. CUBIN.  I couldn't hear you.
	MR. DELANY.  BYU, 1984, beat Michigan to claim the national championship.
	MS. CUBIN.  Well, I am talking about under the BCS system.
	MR. DELANY.  Well, they would have been in the BCS game because they were ranked either one or two in that year.
	MS. CUBIN.  And that was, too, when it wasn't the Mountain West then, it was Western Athletic Conference, which was a whole different ball game and so that, I don't think that is really a fair--Mr. Junker.
	MR. JUNKER.  Thank you, Representative, if I may respond.  University of Utah was selected by our selection committee and in fact, we had the opportunity to invite a fine team from the University of Texas, which is now competing for the national championship and we made the overt decisions, voluntarily, to invite the University of Utah to participate in the Fiesta Bowl.
	MS. CUBIN.  Yeah, I realize that they got to play in the bowl, but I am talking about in national championship game.  You know, they are not going to have a chance.  Let me move on just a little bit.  So how in the world, what scenario, I guess, would make it possible for a Mountain West team to be able to play for the national championship if there isn't a playoff in football?  I mean, would they have to frontload their games so that they would have a whole bunch of difficult road games at the beginning of their schedule?  Would that scenario help them and if that is the only scenario there is, is that fair?
	MR. WEIBERG.  Well, all teams start the season with the same opportunity to play for the national championship if they can achieve a one and two ranking and I don't believe that the Mountain West Conference cannot achieve that standard.  They have programs that have the potential to be very good national programs.  It certainly helps to play meaningful non-conference games.  For example, this year if the University of Texas had not played at Ohio State and won that game, I think it would have been very difficult for them to have made it through, assuming there were other unbeaten teams at season end and so playing quality opponents in the non-conference is important, but I personally don't believe there is an automatic exclusion of teams from the Mountain West or other conferences in terms of their ability to reach a championship game in this structure.  It is not easy, but it is not easy for any program.
	MS. CUBIN.  But what could Utah have done last year?
	MR. WEIBERG.  Well, there is no question in a year in which we end up with more than two unbeaten teams at season end, it is the point that has been made here on numerous occasions, the ranking system is going to determine the one-two match up.  There are only two slots, so unless you expand the number of slots in some fashion, that issue cannot be addressed.
	MS. CUBIN.  Well, then, if you had a playoff, it seems to me that that might reflect the ability of the football players a little more.  This year Wyoming went to the Las Vegas Bowl and played UCLA and UCLA, they were furious that they even had to come, had to play Wyoming and then we whooped them.  So you know, people's opinions don't necessarily reflect what the results will be.  I don't understand you guys, so I only have 18 seconds.  I will yield them back.
	MR. DELANY.  Just one comment; the Big Ten went from 1968 to 1997 without a national championship.  It is not easy to get a national championship.
	MS. CUBIN.  Right.  Right.
	MR. DELANY.  1968 Rex Kern at Ohio State.  1997, it was 29 years and so--
	MS. CUBIN.  But they have always got the chance and the Mountain West doesn't have a chance.  That is my point.  That is my belief, I should say.  Thank you.  I yield back.
	MR. STEARNS.  Thank you, Gentlelady.  The gentlelady from Tennessee.
	MS. BLACKBURN.  Thank you, Mr. Chairman.  And I want to thank all of our panelists.  Thank you for being here.  I want to go back to the educational and the academic components of this.  I had looked at the ESPN.com website, there was a story yesterday citing that 41 percent of all NCAA Division I teams that will play in bowl games this year are currently falling below the academic requirements set by the NCAA and about half of those teams have only 50 percent of their players on track to graduate.  Are you all familiar with that story?  Did everybody--
	MR. WEIBERG.  Yes, I saw that story yesterday and I think there are some inaccuracies in that story.  First of all, the data being used, the academic progress rate data, is data that is raw data from the very first year of the NCAA's tracking of academic progress under the new academic reform program.  If a second year of data was included, I believe that that number would be substantially lower and then, of course, the penalty structure will kick in, as it should, to address those programs that are not performing well.  I think the number with corrected data may have been as few as 10 programs out of 56, if not smaller, and so the only point I want to make about that is to say yes, there are academic concerns associated with these programs, but the broad indictment of that story I don't believe was very fairly done and--
	MS. BLACKBURN.  Okay, let me ask you this.
	MR. WEIBERG.  --reflect the data that was not--
	MS. BLACKBURN.  Let me reclaim my time and then ask you this.  Are you planning to produce a study that would then refute those results?
	MR. WEIBERG.  It is my understanding that the NCAA is attempting to issue some sort of statement regarding that data.  I don't know if it has been out yesterday.  I received an e-mail message about it yesterday to the effect that I described and I hope they do issue a statement to correct the record.
	MS. BLACKBURN.  Then may I ask you, for the record, to submit to me that information?
	MR. WEIBERG.  Sure.
	MS. BLACKBURN.  I would be interested to know what each of your schools do to be certain that athletes graduate.  I would also be interested to know of the number of individuals that play on your team over a five-year, 10-year, 20-year period of time, kind of where are they now, looking at what they have done.  Did they receive a degree?  Did they have an appropriate education to go on and in whatever way they choose to live their life, to be successful in living that life because the focus is to go to school and receive an education and extra-curricular activities are supposed to be just that.
	MR. WEIBERG.  Well, if I may--
	MS. BLACKBURN.  They are supposed to be additional ways to round out one's education and they are not to be the focus of it.  And unfortunately, as we have talked many time, it seems that the focus becomes money and the focus too often gets placed on money, and Mr. Delany, in your testimony, you had mentioned that, you used the word preposterous in saying that it was preposterous to say that the current bowl system enriches certain conferences.  In reading some statistics that I have from the NCAA, it shows the BCS conferences and participating schools received almost $170 million of the $191 million from the bowl payouts in 2004 and additionally, it shows the Big Ten alone received over $22 million in the 2003-2004 season and over $16 million in the 2004-2005 season, and I have--those figures are included in the committee memo that we have.  So Mr. Delany, how much money are you expecting the Big Ten to receive as a result of both Ohio State and Penn State playing in the--
	MR. DELANY.  I think that number would probably be about $22 million divided by 11.  Each institution, whether they play or not, will receive about $2 million.  To put it into context, in order to support 8500 male and female athletes on 250 teams, there is about $650 million annually that is necessary.  Of that $600 plus million, about $20 million to $25 million comes from the BCS, maximum.  And so it is an important part of what we do.  The relative point I was trying to make is that I am absolutely sure that an NFL-style football playoff would provide maybe three or four times as many dollars to the Big Ten than the present system does.  In fact, a number of corporations have come forward and tried to lure us into a playoff with those kinds of dollars.  There is no doubt in my mind that we are leaving hundreds of millions of dollars on the table for the reasons that have been expressed here around this table, so there is more money out there and we have turned our back, we don't get very much credit.  We get credit for taking it, but for not turning our back on it.
	MS. BLACKBURN.  Thank you.  My time is expired.
	MR. STEARNS.  I thank you, Gentlelady.  I think we are all finished with questions and the hearing is coming to a conclusion.  I want to thank the witnesses.  I think maybe as chairman, I have an opportunity sometimes to a concluding comment.  I represent the University of Florida and they are very much in favor of the current system, so I am sensitive to that, but I would say, after hearing Chairman Barton and others, that it looks like the Division I-A is an anomaly.  When you look at what is happening in basketball and you look in baseball and then you even look down at the Division I-AA and Division II and Division III within football itself, so Mr. Weiberg, your argument doesn't quite work. But maybe the solution is the plus one that you are talking about.  It might be a better avenue to go, but I think in any hearing that we have in Congress it has been very edifying, and I think we have had some opportunity to share some humor and I just want to comment to Mr. Delany that on the spot he can go back to 1984 and remember those two teams is pretty impressive, so with that, the subcommittee is adjourned.
	[Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


</pre></body></html>
